App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 18-11638
-----------------------------------------------------------------------

D.C. Docket No. 1:16-cv-21769-KMW
IRINA TESORIERO,
Plaintiff-Appellant,
versus
CARNIVAL CORPORATION,
d.b.a. Carnival Cruise Line,
Defendant-Appellee.
--------------------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Florida
--------------------------------------------------------------------------------------------------------------

(July 14, 2020)
Before ROSENBAUM, GRANT, and HULL, Circuit
Judges.
GRANT, Circuit Judge.
When Irina Tesoriero sat on the vanity chair in her
Carnival Cruise ship cabin, she was in for a terrible
surprise—it collapsed. While she and her husband
waited for help to arrive, they saw that a leg had fallen
off the chair. Observing no other outward defects, they
took some photos of the pegs that normally held the

App. 2
chair together, which became visible only after the
chair broke. Still waiting for help, they let in a steward
who came to replace the broken chair with a fresh one.
Finally, the Tesorieros took matters into their own
hands and went directly to the onboard medical center;
there, they were told that Tesoriero’s arm was not broken, and an x-ray was taken to be sure. The onboard
doctor treated her with Tylenol, ice, and a sling and
sent the couple on their way.
Understandably frustrated that her injury continued to bother her, Tesorerio sought treatment at home
after the cruise. Still no broken arm, but she was suffering from a terrible case of medial epicondylitis and
ulnar neurapraxia—a diagnosis Tesoriero describes as
tennis elbow. Tesoriero was also understandably frustrated with Carnival, and ﬁled suit against the cruise
line, alleging that it had failed to inspect and maintain
the cabin furniture (or else warn her of the danger the
chair posed). Perhaps aware of the difﬁculty she may
have in showing that Carnival had notice about the
chair’s dangers (especially given the photos suggesting
no outward defects), she fought the usual notice requirement on two fronts: ﬁrst, she alleged that res ipsa
loquitor applied and meant that she did not need to
show notice, and second, she claimed that Carnival
should be sanctioned with an adverse inference on notice because it failed to preserve the broken chair.
The district court granted summary judgment in
favor of Carnival. The court found that the cruise line
did not have notice that the chair was dangerous, that
res ipsa loquitor did not apply, and that the failure to

App. 3
save the chair was not sanctionable. Tesoriero now appeals those three conclusions. After careful review, we
agree with the district court that Tesoriero failed to
show that Carnival had actual or constructive notice
that the chair was broken. Unlike the district court, we
decline to consider whether res ipsa loquitor applies;
even if it does, that doctrine cannot cure a defect in notice. Nor can the requested spoliation sanctions; even
setting aside whether we think the chair itself could
have provided any evidence of notice, Carnival’s failure
to preserve the chair was not shown to be in bad faith
and is therefore not sanctionable. For all those reasons,
we afﬁrm.
I.
On June 26, 2015, Irina Tesoriero was getting
ready for dinner in her cabin aboard the Carnival
Splendor. She pulled a wooden chair “about a foot”
away from the vanity and attempted to sit down, but it
collapsed beneath her. Her right collarbone struck the
vanity and her right arm was injured; initially, she believed that her arm was broken. Her husband, Joseph
Tesoriero, witnessed the incident and called the front
desk for help.
While waiting for help to arrive, Joseph inspected
and photographed the chair. He saw that it “did not
have any obvious or observable outward defects” before
it broke. He also saw that the right front leg, which had
been attached to the seat by pegs, had fallen off, and
that the glue on the pegs was dried and chipped. In his

App. 4
opinion, it “was obvious from the appearance of the
pegs—visible only after it fell apart—that the pegs had
been unglued and loose for a long time.” A steward
came to the cabin, took away the broken chair, and replaced it with a new one. The chair was later disposed
of by an unknown crew member because it could not be
ﬁxed.
Tesoriero and her husband waited around for medical staff, and went to the onboard medical center when
in-cabin aid was not forthcoming. Tesoriero was then
examined by a physician, who told her (correctly, as it
turns out) that she did not have a fracture and gave
her Tylenol, ice, and an arm sling. Although an x-ray
was taken, it was sent to Miami for review because it
could not be read on the ship. While at the medical center, Joseph Tesoriero completed a “passenger injury
statement” on his wife’s behalf. The statement collected basic information, including the time, date, and
location of the incident.
In accordance with Carnival’s policy, because Tesoriero’s injury only required ﬁrst aid—and because she
did not request an accident report—the medical staff
classiﬁed the accident as “non-reportable.” That meant
that the security department, which is responsible for
investigating accidents and, when necessary, preserving evidence, was asked to do neither. The room stewards, on the other hand, dispose of broken furniture
that cannot be repaired and only preserve it if asked to
do so. That general policy was followed here, so the
chair was not preserved.

App. 5
After Tesoriero disembarked, she received conﬁrmation that her x-ray results did not show a broken
arm. But the arm was not ready to make peace, and
Tesoriero continued to experience pain and swelling.
She was ultimately diagnosed with medial epicondylitis and ulnar neurapraxia, which she described as “tennis elbow.” Tesoriero struggled to get her arm back to
full strength, undergoing injections, therapy, and surgery, apparently with little success; she says that she
continued to require medical treatment into this litigation, and that she struggles with basic tasks like
cooking, taking out the garbage, and carrying groceries.
A little less than a year after the cruise, Tesoriero
ﬁled a complaint against Carnival in the Southern District of Florida, asserting a single claim of negligence
based on Carnival’s alleged failure to inspect and
maintain the cabin furniture and failure to warn passengers of the unsafe condition. Both parties moved for
summary judgment. For its part, Carnival invoked a
familiar defense, arguing that it was not responsible
for Tesoriero’s injury because it had neither actual nor
constructive knowledge that the chair was unsafe prior
to the incident.
During discovery, Tesoriero deposed the housekeeping manager who was aboard the ship at the time
of the accident. The manager testiﬁed that stewards
cleaned the cabins daily and were responsible for inspecting the cabin furniture. He explained that that
process involved physical movement of the chairs in
the course of vacuuming, as well as visual inspection

App. 6
of the entire cabin, including the furniture, for signs of
damage. Damaged furniture was reported to a ﬂoor supervisor, who was tasked with making a record of the
problem and addressing it. When repairs were possible, they were made, and when repairs were not possible, the items were disposed of.
Tesoriero’s arguments—considering both her response to Carnival’s motion and her own motion for
summary judgment—were threefold. First, she said
that the condition of the chair, coupled with Carnival’s
regular inspections of the cabin furniture, was enough
to constitute constructive notice of the dangerous condition.1 Second, she contended that the doctrine of res
ipsa loquitur applied and eliminated the need for her
to show that Carnival had notice in any event. Finally,
she argued that Carnival’s disposal of the broken chair
amounted to spoliation of evidence and entitled her to
an inference that Carnival had notice of the risk-creating condition.
A magistrate judge issued a report and recommendation on the competing motions. He said that the evidence demonstrated that “no reasonable inspection
could have discovered the dangerous condition without
1

At the trial level, Tesoriero pressed additional arguments.
She said that Carnival had constructive notice because of (1) a
prior accident involving a collapsing metal balcony chair; and (2)
internal documents from Carnival regarding the repair and replacement of cabin chairs. She also contended that her negligent
maintenance claim did not require a showing of notice. The district court rejected all these arguments, and Tesoriero does not
challenge those rulings on appeal.

App. 7
ﬁrst deconstructing the cabin chair.” As to the res ipsa
loquitur issue, the magistrate ﬁrst concluded that the
doctrine, if applicable, would indeed absolve Tesoriero
of any need to show that Carnival had actual or constructive notice of the dangerous condition. Ultimately
though, he decided that the doctrine did not apply because a collapsing chair can easily happen even without negligence. Finally, the magistrate declined to
sanction Carnival for spoliation of evidence, seeing no
evidence that Carnival reasonably anticipated litigation following the accident.
Over Tesoriero’s objections, the district court afﬁrmed and adopted the magistrate judge’s report and
recommendation and granted Carnival summary judgment. In adopting the recommendation, the court speciﬁcally ruled that res ipsa loquitur did not apply and
that the facts surrounding the disposal of the broken
chair did “not amount to spoliation such that an adverse inference is warranted.” Tesoriero appealed.
II.
“We review a district court’s grant of summary
judgment de novo. Summary judgment is appropriate
only when no genuine issue of material fact exists and
the moving party is entitled to judgment as a matter
of law.” Lewis v. City of Union City, 918 F.3d 1213, 1220
n.4 (11th Cir. 2019) (en banc) (internal citation omitted). We view “the evidence and all reasonable inferences drawn from it in the light most favorable to the
nonmoving party.” Hornsby-Culpepper v. Ware, 906

App. 8
F.3d 1302, 1311 (11th Cir. 2018). “Where the record
taken as a whole could not lead a rational trier of fact
to ﬁnd for the non-moving party, there is no genuine
issue for trial.” Id. (quotation marks and citation omitted). “We review the district court’s decision regarding
spoliation sanctions for abuse of discretion.” Flury v.
Daimler Chrysler Corp., 427 F.3d 939, 943 (11th Cir.
2005). We “may afﬁrm for any reason supported by the
record, even if not relied upon by the district court.”
Lage v. Ocwen Loan Servicing LLC, 839 F.3d 1003,
1009 (11th Cir. 2016) (citation omitted).
III.
On appeal, Tesoriero raises three arguments.
First, she argues that her husband’s observations
about the broken cabin chair, coupled with Carnival’s
admitted regular inspections, show that Carnival had
constructive notice that the chair was dangerous. Second, she argues that even if she cannot establish notice, the doctrine of res ipsa loquitur saves her claim
because it eliminates the ordinary notice requirement.
Finally, she argues that she is entitled to an adverse
inference against Carnival on the notice requirement
in any event because Carnival spoliated evidence when
it discarded the chair.
A.
Before turning to Tesoriero’s constructive notice
argument, we should say a few words about the background legal principles in play. “Maritime law governs

App. 9
actions arising from alleged torts committed aboard a
ship sailing in navigable waters.” Guevara v. NCL (Bahamas) Ltd., 920 F.3d 710, 720 (11th Cir. 2019).
“Drawn from state and federal sources, the general
maritime law is an amalgam of traditional commonlaw rules, modiﬁcations of those rules, and newly created rules.” Misener Marine Const., Inc. v. Norfolk
Dredging Co., 594 F.3d 832, 838 (11th Cir. 2010) (quoting E. River S.S. Corp. v. Transamerica Delaval, Inc.,
476 U.S. 858, 864–65 (1986)). And in the absence of an
established federal maritime rule, we “may borrow
from a variety of sources in establishing common law
admiralty rules to govern maritime liability where
deemed appropriate.” Marastro Compania Naviera,
S.A. v. Canadian Mar. Carriers, Ltd., 959 F.2d 49, 53
(5th Cir. 1992) (applying the “general common law and
in particular the Restatement (Second) of Torts” to “determine the law of maritime trespass”); see also Wells
v. Liddy, 186 F.3d 505, 525 (4th Cir. 1999) (The “general
maritime law may be supplemented by either state law
or more general common law principles.” (internal citation omitted)). For maritime tort cases in particular,
“we rely on general principles of negligence law.” Chaparro v. Carnival Corp., 693 F.3d 1333, 1336 (11th Cir.
2012) (citation omitted).
A few key principles have developed to guide our
analysis of these torts. A cruise line “is not liable to
passengers as an insurer,” but instead is liable to passengers “only for its negligence.” Keefe v. Bahama
Cruise Line, Inc., 867 F.2d 1318, 1322 (11th Cir. 1989)
(citation omitted). The elements of a maritime

App. 10
negligence claim, in turn, are well-established, and
stem from general principles of tort law. A cruise passenger must show that “(1) the defendant had a duty
to protect the plaintiff from a particular injury, (2) the
defendant breached that duty, (3) the breach actually
and proximately caused the plaintiff ’s injury, and (4)
the plaintiff suffered actual harm.” Guevara, 920 F.3d
at 720 (quoting Chaparro, 693 F.3d at 1336).
Here, the ﬁrst question for us is the scope of Carnival’s duty to Tesoriero. Shipowners owe their passengers a duty of “ordinary reasonable care under the
circumstances.” Keefe, 867 F.2d at 1322. This standard
requires, “as a prerequisite to imposing liability, that
the carrier have had actual or constructive notice of
the risk-creating condition,” at least so long as “the
menace is one commonly encountered on land and not
clearly linked to nautical adventure.” Id.; Everett v.
Carnival Cruise Lines, 912 F.2d 1355, 1358 (11th Cir.
1990). In other words, a cruise ship operator’s duty is
to shield passengers from known dangers (and from
dangers that should be known), whether by eliminating the risk or warning of it. Liability for a cruise ship
operator thus “ ‘hinges on whether it knew or should
have known’ about the dangerous condition.” Guevara,
920 F.3d at 720 (quoting Keefe, 867 F.2d at 1322).2

2

This notice requirement is not unique to maritime law. For
example, in a traditional negligence action against a landowner
by an invitee, a “defect or danger is generally insufﬁcient to establish liability, unless it is shown to be of such a character or of
such duration that the jury may reasonably conclude that due
care would have discovered it.” W. Page Keeton et al., Prosser and

App. 11
We have identiﬁed at least two ways that constructive notice can be shown. First, a plaintiff can establish
constructive notice by showing that a “defective condition existed for a sufﬁcient period of time to invite corrective measures.” Id. (alterations adopted) (quoting
Monteleone v. Bahama Cruise Line, Inc., 838 F.2d 63,
65 (2d Cir. 1988)). Second, a plaintiff can show evidence
of “substantially similar incidents in which conditions
substantially similar to the occurrence in question
must have caused the prior accident.” Id. (quotation
marks and citation omitted). On the other hand, the
fact that the cruise line runs the ship is not enough—
constructive notice of a risk cannot be imputed merely
because a shipowner “created or maintained” the
premises. Everett, 912 F.2d at 1358–59.
Here, the evidence does not show—and Tesoriero
does not contend—that Carnival had actual notice that
the chair was dangerous. Nor do we have any evidence
of substantially similar incidents involving wooden
cabin chairs. Tesoriero’s sole argument that Carnival
had constructive notice relies on her husband’s observations about the chair, along with Carnival’s furnitureinspection policy. In her view, these facts demonstrate
that Carnival should have known about the chair’s
“hair-trigger condition.” For Tesoriero to prevail on this
Keeton on the Law of Torts § 61, at 426–27 (5th ed. 1984). So, for
example, the “mere fact of the presence of a banana peel on a ﬂoor
may not be sufﬁcient to show that it has been there long enough
for reasonable care to require the defendant to discover and remove it,” while a “black, ﬂattened out and gritty” peel might lead
to a different conclusion. Id. § 39, at 243 (citation omitted). The
key is notice.

App. 12
theory, we would need to conclude that the chair existed in a defective condition “for a sufﬁcient period of
time to invite corrective measures.” Guevara, 920 F.3d
at 720. A defect, however, must be reasonably detectable for it to “invite” corrective measures, and we cannot
see how the chair’s condition here issued any such invitation.
To begin, Carnival’s “regular inspections weigh
against a ﬁnding of constructive notice” that the chair
was dangerous—not in favor of that ﬁnding. Id. at 723
n.8; see also Monteleone, 838 F.2d at 66. The daily inspection policy required stewards to report damaged
furniture to a ﬂoor supervisor, and the supervisor was
then responsible for documenting and addressing the
issue. The lack of a report noting structural damage to
Tesoriero’s cabin chair—or any wooden cabin chair for
that matter—indicates that the chair was not in a condition that invited corrective measures.
And at a more basic level, Tesoriero’s constructive
notice argument is undermined by her own evidence.
In Joseph Tesoriero’s afﬁdavit describing the incident,
he observed that the glue on the pegs holding the chair
together “appeared to be dried out or chipped away”
and that it was “obvious” that “the pegs had been unglued and loose for a long time.” But those observations, however obvious they may have been after the
fall, could not have been made by the crew before the
chair came apart. Joseph Tesoriero himself admitted
that—before its collapse—the “chair did not have any
obvious or observable outward defects.” In fact, he

App. 13
added that the condition of the pegs was “visible only
after it fell apart.”
The photographic evidence submitted by Tesoriero
only reinforces her husband’s observations. Though
the pictures cannot reveal the state of the glue, it appears that the leg and seat of the chair were held together by four pegs that ﬁt into opposing holes. With
the chair intact, its cloth-covered frame would have enveloped and obscured the peg-and-hole assembly. So,
consistent with Joseph Tesoriero’s testimony, any defect relating to dried or chipped glue could not have
been visible until the chair came apart.
Even beyond the lack of any outwardly visible defect, Tesoriero’s characterization of the chair’s “hairtrigger condition” is weakened by her own testimony.
In her deposition, Tesoriero testiﬁed that she moved
the chair back from the vanity, evidently without noticing any problem; the issue only became apparent after the chair broke under her full weight.
The combined effect of this evidence does not support a reasonable inference that Carnival should have
known about the danger. Quite the opposite: it supports an inference that the defect in the chair was hidden, was not readily observable by sight or touch, and
could only be discovered by either disassembling the
chair to view the pegs or stress testing it. An implicit
legal requirement that all furniture on a cruise ship be
either disassembled or subjected to daily stress testing
would be remarkable. Rather than establishing that
Carnival should have known of the chair’s defective

App. 14
condition, the evidence supports the cruise line’s assertion that moving the chair during cleaning and conducting routine visual inspections did not reveal a
risk-creating condition.
B.
That brings us to res ipsa loquitur. Tesoriero argues that even if she cannot show that Carnival had
notice of the chair’s dangerous condition, the cruise
line can still be held liable under that doctrine because
it eliminates the usual notice requirement. Her theory,
though, fails on several fronts: it not only misunderstands the relationship between duty and notice in a
tort claim but would also dramatically expand the doctrine of res ipsa loquitur, which “in the admiralty context is not totally unique but neither is it routine.”
United States v. Baycon Indus., Inc., 804 F.2d 630, 633
(11th Cir. 1986).
Res ipsa loquitur—Latin for “the thing speaks for
itself ”—is an evidentiary doctrine that permits a trier
of fact to infer a defendant’s negligence from unexplained circumstances.3 Sweeney v. Erving, 228 U.S.
233, 238–39 (1913); see also Johnson v. United States,
333 U.S. 46, 49 (1948). In other words, it is a form of
circumstantial evidence. See Sweeney, 228 U.S. at 240;
3

As it turns out, the phrase itself does not “speak for itself ”—the Latin terminology has long been criticized for adding
unnecessary mystery “to a relatively simple problem” of circumstantial evidence. Restatement (Second) of Torts § 328D cmt. a
(Am. Law Inst. 1965).

App. 15
see also W. Page Keeton et al., Prosser and Keeton on
the Law of Torts § 39, at 243 (5th ed. 1984); Restatement (Second) of Torts § 328D cmt. b (Am. Law Inst.
1965). For the doctrine to apply, the plaintiff needs to
show that “(1) the injured party was without fault, (2)
the instrumentality causing the injury was under the
exclusive control of the defendant, and (3) the mishap
is of a type that ordinarily does not occur in the absence of negligence.” Baycon, 804 F.2d at 633.
But before we address the application of the doctrine to the facts of this case, we need to decide a
threshold question that has divided the district courts
in our Circuit—whether a maritime passenger who
fails to establish the shipowner’s notice of a dangerous
condition can still survive summary judgment by invoking res ipsa loquitur. If not, the lack of notice is dispositive: no notice, no negligence. This is an open
question in our Circuit.
Indeed, district courts have reached conﬂicting
conclusions on the issue. In Adams v. Carnival Corp.—
a maritime negligence action arising from a deck chair
collapsing under a passenger—the district court considered the effect of res ipsa loquitur on the notice requirement. No. 08-22465-CIV, 2009 WL 4907547, at *1,
*5 (S.D. Fla. Sept. 29, 2009). The evidence showed that
Carnival conducted routine inspections of the chairs,
and the court concluded that the plaintiff presented no
evidence that the defect was “even capable of detection.” Id. at *4. There, as here, the plaintiff attempted
to get around the usual notice requirement with res
ipsa loquitur. Ultimately, the district court held that

App. 16
the plaintiff ’s invocation of res ipsa loquitur did “not
obviate the need to show that Carnival had notice.” Id.
at *5. “Without speciﬁc facts demonstrating, at least,
that the purported defect was detectable with sufﬁcient time to allow for corrective action,” the case could
not proceed to a jury. Id.
Since Adams, though, the tide has turned and a
majority of the district courts in this Circuit have
reached the opposite conclusion (including in this
case).4 A leading example is Millan v. Celebration
4

Cases from other jurisdictions take a variety of approaches
on res ipsa loquitur and notice. Following in Adams’ footsteps,
“several cases in the maritime context” support an argument
“that a predicate for a res ipsa loquitur ﬁnding is that the Defendant had notice of the defective condition.” Tillson v. Odyssey
Cruises, No. 08-10997-DPW, 2011 WL 309660, at *7 (D. Mass.
Jan. 27, 2011). Others have concluded that res ipsa loquitur is
incompatible with a notice requirement. See, e.g., Krivokuca v.
City of Chicago, 73 N.E.3d 525, 532 (Ill. App. Ct. 2017) (holding
that res ipsa loquitur was unavailable when statute required
showing actual or constructive notice); Mixon v. Wash. Metro.
Area Transit Auth., 959 A.2d 55, 60 (D.C. 2008) (This “court and
others have held that in cases in which notice is an essential element of a plaintiff ’s claim, res ipsa loquitur is inapplicable because it is inconsistent with the requirement of notice.”). There is
also considerable support for the opposite proposition. See, e.g.,
Smith v. United States, 860 F.3d 995, 998 n.2 (7th Cir. 2017) (noting that “the inference triggered by the res ipsa loquitur doctrine
would include the proposition that the defendant had notice of the
defective nature of the instrumentality that caused the plaintiff ’s
injury”); Miller v. Cincinnati, New Orleans & Tex. Pac. Ry. Co.,
317 F.2d 693, 696 (6th Cir. 1963) (“If application of the doctrine
permits an inference of negligence, such inference must necessarily include all the essential elements of negligence, including
here an inference that defendant had actual or constructive
knowledge of the defective condition.”); Burns v. Otis Elevator,

App. 17
Cruise Operator, Inc., where a piece of the ceiling fell
and hit a passenger. 212 F. Supp. 3d 1301 (S.D. Fla.
2015). After initially distinguishing Adams on its facts,
the court went on to conclude that “a plaintiff is not
required to show the defendant’s actual or constructive
notice of the defective condition in order to raise a res
ipsa loquitur inference of negligence under maritime
law.” Id. at 1306. In support of that conclusion, the district court cited our opinion in United States v. Baycon
Industries as ﬁnding “no requirement of actual or constructive notice for res ipsa in maritime negligence action.” Id. at 1305–06 (citing Baycon, 804 F.2d at 63235). The problem is that Baycon does not say that (or
even hint at it). Nevertheless, many district court
opinions have embraced this view in the years that followed, often with little more than a citation to Millan
itself. See, e.g., Morhardt v. Carnival Corp., 304
F. Supp. 3d 1290, 1296 (S.D. Fla. 2017) (citing Millan
and noting that “courts in this district have held that
a plaintiff in a maritime action based on negligence is
not required to prove that the shipowner had notice of
the defective condition when the doctrine of res ipsa
loquitur applies”); O’Brien v. NCL (Bahamas) Ltd., 288
F. Supp. 3d 1302, 1314 (S.D. Fla. 2017).
In resolving the apparent uncertainty within our
Circuit about notice and res ipsa loquitur, we return to

Co., 550 So. 2d 21, 22 (Fla. Dist. Ct. App. 1989) (actual or constructive notice of the defect is “immaterial” if the conditions for
the res ipsa doctrine are established).

App. 18
ﬁrst principles.5 “Res ipsa loquitur leads only to the
conclusion that the defendant has not exercised reasonable care, and is not itself any proof that he was
under a duty to do so.” Keeton et al., supra, § 39, at 255.
“It does not permit the imposition of liability without
fault, and therefore does not help to establish the duty
of care, which is essential to every negligence case.” 1
Stuart M. Speiser, The Negligence Case: Res Ipsa Loquitur § 3:1, at 90 (1972). That means the doctrine does
not apply unless the alleged negligence is “within the
scope of the defendant’s duty to the plaintiff.” Restatement (Second) of Torts § 328D (Am. Law Inst. 1965).
That same duty requirement is found in the res ipsa
loquitur doctrines of many states, and at least one federal circuit court has already stated that it applies in
the admiralty context as well. See, e.g., Trigg v. City &
County of Denver, 784 F.2d 1058, 1060 (10th Cir. 1986)
(applying Colorado law); Biggs v. Logicon, Inc., 663 F.2d
52, 54 (8th Cir. 1981) (noting in an admiralty case that
res ipsa loquitur only applies if the “negligence is
within the scope of the defendant’s duty to the plaintiff ”); Moon v. Dauphin County, 129 A.3d 16, 26 (Pa.
Commw. Ct. 2015); Crum v. Equity Inns, Inc., 685
S.E.2d 219, 229 (W. Va. 2009); Linnear v. CenterPoint
Energy Entex/Reliant Energy, 966 So. 2d 36, 44 (La.
2007).

5

Our Circuit is not alone in its uncertainty—at least as a
general matter. Prosser and Keeton, for instance, describe “an uncertain ‘doctrine’ of res ipsa loquitur, which has been the source
of some considerable trouble to the courts.” Keeton et al., supra,
§ 39, at 243–44.

App. 19
So res ipsa loquitur can allow a jury to infer from
circumstantial evidence that the defendant must have
breached its duty—but it cannot show that a defendant must have had that duty in the ﬁrst place. The Supreme Court’s description of the doctrine as “an aid to
the plaintiff in sustaining the burden of proving breach
of the duty of due care” is consistent with that understanding—a duty can only be breached if it exists.
Commercial Molasses Corp. v. N.Y. Tank Barge Corp.,
314 U.S. 104, 113 (1941) (emphasis added). It would be
quite odd to say that a party must have had a duty, but
for reasons that cannot be discovered. As another court
put it, “res ipsa loquitur provides no assistance to a
plaintiff ’s obligation to demonstrate a defendant’s
duty, that a breach of that duty was a substantial factor in causing plaintiff harm, or that such harm resulted in actual damages. However, res ipsa loquitur
does aid a plaintiff in proving a breach of duty.” Quinby
v. Plumsteadville Family Practice, Inc., 907 A.2d 1061,
1071 n.15 (Pa. 2006). Well put.
For instance, a trespasser, to whom no duty of care
was owed by a landowner, may not establish a landowner’s liability for a defective condition by relying on
res ipsa loquitur. Restatement (Second) of Torts § 328D
cmt. j (Am. Law Inst. 1965). Similarly, if a statute provides that automobile drivers are only liable to their
passengers for “wilful, wanton, or reckless conduct,” a
passenger relying on res ipsa loquitur to show a breach
of ordinary care cannot establish liability under the
higher statutory duty. Id. In other words, res ipsa loquitur “does not eliminate a plaintiff ’s obligation to

App. 20
prove that the defendant owed a duty to the plaintiff
in the ﬁrst place.” Ausherman v. Bank of Am. Corp., 352
F.3d 896, 901 (4th Cir. 2003).
With this foundation laid, our resolution of the notice issue is straightforward. If res ipsa loquitur cannot
eliminate the duty requirement, it cannot eliminate
the notice requirement; the two are intertwined in a
maritime negligence tort. Guevara, 920 F.3d at 720.
Maritime passengers are owed a duty of “ordinary reasonable care under the circumstances, a standard
which requires, as a prerequisite to imposing liability,
that the carrier have had actual or constructive notice
of the risk-creating condition.” Keefe, 867 F.2d at 1322;
Everett, 912 F.2d at 1358. And we have been clear that
the scope of a cruise line’s “duty to protect its passengers is informed, if not deﬁned, by its knowledge of the
dangers they face onboard.” K.T. v. Royal Caribbean
Cruises, Ltd., 931 F.3d 1041, 1044 (11th Cir. 2019).
The Baycon case, no matter how frequently it is
cited, does not change that equation. In fact, it does not
even use the term notice or explicitly consider the issue
before us today. Instead, Baycon deals with shipowner
liability for sunken vessels. Baycon, 804 F.2d at 631–
32. The suit was brought under the Rivers and Harbors
Act of 1899, which imposed a duty on shipowners to not
“voluntarily or carelessly” sink a vessel. Id. at 631, 633
n.5 (citation omitted). Because the forty-year-old, longidle ship in that case sunk on a clear and calm night,
we allowed the doctrine of res ipsa loquitur to supply
the inference that its sudden sinking was caused by
negligence. Id. at 634. That is all.

App. 21
Even so, district courts in this Circuit have sometimes concluded—perhaps from the lack of any discussion about notice—that Baycon demonstrates that res
ipsa loquitur eliminates any notice requirement. But
that is just not right. To begin, though Baycon does not
speciﬁcally address notice, the Court’s discussion of the
dredge’s age, the length of time since it had been in
service, and the preparation for travel without assessing “the condition of the external hull below the
water line” rings in the tones of constructive notice. Id.
And more to the point, absent so much as a word about
notice in that earlier precedent on statutory negligence
for sunken vessels, we cannot jump to the conclusion
that res ipsa loquitur obviates the well-known notice
requirement for cruise ship negligence cases brought
by passengers.
*

*

*

In sum, a plaintiff who relies on res ipsa loquitur
to show a breach of duty still bears the burden of proving that a duty existed in the ﬁrst place. And because
notice is an integral part of duty, a passenger who relies on res ipsa loquitur bears the burden of showing
that the cruise line had notice. As it applies to this case,
then, the doctrine does not help Tesoriero. Carnival’s
duty was to protect Tesoriero from dangerous conditions that it was aware of or should have been aware
of. But as we have already explained, Tesoriero’s own
evidence shows that the chair’s defect was hidden. Because res ipsa loquitur has no effect on our duty analysis, Tesoriero’s failure to establish Carnival’s actual
or constructive notice is fatal to her case. And that is

App. 22
true whether or not res ipsa loquitur would otherwise
apply to a broken chair fact pattern—a question we
need not consider given our resolution of the notice issue.
So, although we conclude that the district court
erred by holding that res ipsa loquitur obviates the notice requirement, we ultimately reach the same result:
Tesoriero’s failure to prove that Carnival had notice
cannot be cured by her reliance on res ipsa loquitur.
C.
Finally, we consider Tesoriero’s argument that
Carnival spoliated evidence by disposing of her broken
cabin chair. She maintains here, as she did below, that
Carnival should be sanctioned with an adverse inference that the cruise line had notice of the defect—an
inference that would defeat its motion for summary
judgment.
The district court declined to impose Tesoriero’s
requested sanction because, in its view, Carnival did
not reasonably anticipate litigation, and therefore did
not have a duty to preserve the chair. This was incorrect, and the district court’s reasoning is undermined
by Carnival’s own admission. During discovery, in its
response to a request for admissions under Federal
Rule of Civil Procedure 36, Carnival admitted that it
anticipated litigation “immediately after the incident
was reported.” “A matter admitted under this rule is
conclusively established unless the court, on motion,
permits the admission to be withdrawn or amended.”

App. 23
Fed. R. Civ. P. 36(b). Because the record does not indicate that Carnival’s admission was withdrawn or
amended, we must conclude that the district court
erred in holding that Carnival did not anticipate litigation.
But anticipation of litigation is not the standard
for spoliation sanctions—bad faith is. So even though
the district court incorrectly concluded that Carnival
did not anticipate litigation, the court’s decision not to
impose sanctions for spoliation would still be appropriate absent evidence that Carnival acted in bad faith.
And even if bad faith were shown, the court’s decision
not to impose sanctions would be appropriate if “the
practical importance of the evidence” was minimal.
Flury, 427 F.3d at 945; cf. Green Leaf Nursery v. E.I.
DuPont De Nemours & Co., 341 F.3d 1292, 1308 (11th
Cir. 2003) (no spoliation claim under Florida law without a “signiﬁcant impairment in the ability to prove the
lawsuit”); Walter v. Carnival Corp., No. 09-20962-CIV,
2010 WL 2927962, at *2 (S.D. Fla. July 23, 2010) (evidence must be “crucial to the movant being able to
prove its prima facie case or defense” to establish spoliation). We “may afﬁrm for any reason supported by
the record, even if not relied upon by the district court.”
Lage, 839 F.3d at 1009.
Spoliation is “deﬁned as the destruction of evidence or the signiﬁcant and meaningful alteration of a
document or instrument.” Green Leaf Nursery, 341
F.3d at 1308 (11th Cir. 2003) (quotation marks and citation omitted). In some circumstances, a party’s “spoliation of critical evidence may warrant the imposition

App. 24
of sanctions.” Flury, 427 F.3d at 945. Because spoliation is an evidentiary matter, “federal law governs the
imposition of spoliation sanctions.” Id. at 944. Sanctions for spoliation may include “(1) dismissal of the
case; (2) exclusion of expert testimony; or (3) a jury instruction on spoliation of evidence which raises a presumption against the spoliator.” Id. at 945.
When deciding whether to impose sanctions, a
number of factors are relevant: “(1) whether the party
seeking sanctions was prejudiced as a result of the destruction of evidence and whether any prejudice could
be cured, (2) the practical importance of the evidence,
(3) whether the spoliating party acted in bad faith, and
(4) the potential for abuse if sanctions are not imposed.” ML Healthcare Servs., LLC v. Publix Super
Mkts., Inc., 881 F.3d 1293, 1307 (11th Cir. 2018) (citing
Flury, 427 F.3d at 945).
Spoliation sanctions—and in particular adverse
inferences—cannot be imposed for negligently losing
or destroying evidence. Indeed, “an adverse inference
is drawn from a party’s failure to preserve evidence
only when the absence of that evidence is predicated
on bad faith.” Bashir v. Amtrak, 119 F.3d 929, 931 (11th
Cir. 1997). And bad faith “in the context of spoliation,
generally means destruction for the purpose of hiding
adverse evidence.” Guzman v. Jones, 804 F.3d 707, 713
(5th Cir. 2015). This consideration is key in evaluating
bad faith because the party’s reason for destroying evidence is what justiﬁes sanctions (or a lack thereof ).
“Mere negligence is not enough, for it does not sustain
an inference of consciousness of a weak case.” Vick v.

App. 25
Tex. Emp’t Comm’n, 514 F.2d 734, 737 (5th Cir. 1975)
(citation omitted).6
Some of our earlier cases illustrate the difference
between bad faith and mere negligence. In Bashir v.
Amtrak, we held on summary judgment that the unexplained absence of a train’s speed record tape did not
warrant an adverse inference that the train was traveling at an excessive speed when it struck and killed a
pedestrian. 119 F.3d at 931. We would “not infer that
the missing speed tape contained evidence unfavorable
to appellees unless the circumstances surrounding the
tape’s absence indicate bad faith, e.g., that appellees
tampered with the evidence.” Id. Because plaintiffs
produced no evidence that the train company purposefully lost or destroyed the tape, we concluded that
there was no showing of bad faith. And ﬁnding no bad
faith, we declined to impose spoliation sanctions
against the train company, which had already produced signiﬁcant evidence that the train was not exceeding the statutory speed limit. Id. at 931–32.
In contrast, bad faith was evident, and spoliation
sanctions were appropriate, in Flury v. Daimler Chrysler Corp. 427 F.3d at 944–47. There, the plaintiff sued
a vehicle manufacturer alleging that he was injured
when his car’s airbags did not inﬂate during a crash.
Id. at 940. Shortly after the lawsuit was ﬁled, the defendant sent a letter requesting the location of the
6

In Bonner v. City of Prichard, 661 F.2d 1206 (11th Cir.
1981) (en banc), this Court adopted as binding precedent all of the
decisions of the former Fifth Circuit handed down prior to the
close of business on September 30, 1981.

App. 26
vehicle so that it could conduct an inspection. Id. at
941–42. The plaintiff did not respond to the letter. Although he was “fully aware that defendant wished to
examine the vehicle,” he “ignored defendant’s request
and allowed the vehicle to be sold for salvage without
notiﬁcation to defendant of its planned removal.” Id. at
945. It is no surprise that we found bad faith on those
facts.
But the facts here are different, and Tesoriero has
not established that Carnival’s failure to preserve the
chair rose to the level of bad faith. Nothing in this
record indicates that Carnival disposed of the broken
chair in a manner inconsistent with its policies or that
the policies themselves somehow establish bad faith.7
And unlike the plaintiff in Flury, Carnival cannot be
said to have been “fully aware” of Tesoriero’s desire to
further inspect the chair. See Flury, 427 F.3d at 945; see
also Calixto v. Watson Bowman Acme Corp., No. 0760077-CIV, 2009 WL 3823390, at *16 (S.D. Fla. Nov. 16,
2009) (concluding that bad faith can be established by
circumstantial evidence only when the “act causing the
loss cannot be credibly explained as not involving bad
faith by the reason proffered by the spoliator”).
7

It is unclear to us how—as the dissent suggests—three district court cases that declined to offer any relief based on spoliation or discarding evidence in accordance with Carnival’s policies
should persuade us that sanctions are appropriate here. Dissenting Op. at 11–12. The point only sharpens when we consider that
two out of the three cases involved collapsing chairs. See Walter
v. Carnival Corp., No. 09-20962-CIV, 2010 WL 2927962 (S.D. Fla.
July 23, 2010); Hickman v. Carnival Corp., No. 04-20044-CIV,
2005 WL 3675961 (S.D. Fla. July 11, 2005).

App. 27
The record shows that the cabin steward came to
Tesoriero’s cabin soon after the accident to remove and
replace the broken chair. The steward was not there to
investigate the accident, but simply to replace the
chair. Of course, as the housekeeping manager aboard
the Carnival Splendor explained, if Tesoriero had requested that the chair be saved, the steward would
have done so. He also would have done so if the security department had requested retention. But without
a request from Tesoriero or the security department,
the chair was taken to maintenance for repair. When
the maintenance department could not repair it, the
chair was disposed of.
Even if the disposal of the chair were somehow improper, we do not see how it would give rise to anything
more than an act of mere negligence. The security department at Carnival is responsible for investigating
accidents and preserving evidence. Again, Tesoriero offers no evidence that she ever requested that the chair
be preserved. Nor was the security department informed by the medical staff that a passenger was injured seriously enough to require an investigation.
Under Carnival’s policy, injuries that only require ﬁrst
aid are classiﬁed as “non-reportable” and do not require an accident report and an investigation by the
security department. By all accounts, on the ship, the
injury to Tesoriero’s arm appeared minor.8 Her arm
8

The dissent’s quote from Tesoriero’s independent medical
examination that her initial x-ray “was read as a hairline fracture” (by whom, he does not say, and we do not know) does not
change this fact. Dissenting Op. at 10. Tesoriero does not argue,

App. 28
was not broken and was only treated with basic ﬁrst
aid—ice, a sling, and Tylenol.9
In short, nothing in the record smacks of bad faith.
Under these facts, Carnival’s explanation reasonably
suggests that the chair was not destroyed to hide adverse evidence. At most, Tesoriero has provided evidence that Carnival’s shipboard medical staff were
negligent in not anticipating that her injury could be
more serious than it appeared. Mere negligence in losing or destroying evidence is not enough to warrant
sanctions. Bashir, 119 F.3d at 931. And the right hand
not talking to the left is not the same thing as the right
hand telling the left to destroy evidence. Accordingly,
we conclude that the district court properly declined to
draw an adverse inference from Carnival’s failure to
retain the chair.

even once, that her arm was broken. According to her own testimony, she was told it was not broken on the ship, she was told it
was not broken on land, and her arm was, in fact, not broken. She
was diagnosed with medial epicondylitis and ulnar neurapraxia—
a condition that she describes as “tennis elbow”—and Tesoriero
does not dispute this conclusion. At this point, of course, we have
no doubt that her injury turned out to be serious.
9
The dissent suggests that this treatment, because it was
provided by a physician instead of a layperson, is not really ﬁrst
aid. Dissenting Op. at 8–9. In the context of Carnival’s policy,
however, ﬁrst aid refers to the type of care provided, not on who
is providing the treatment. We have no hesitation concluding that
ice, a sling, and Tylenol together are nothing more than simple
ﬁrst aid in the context of this policy. The fact that an x-ray was
taken, as a diagnostic step, to conﬁrm the absence of a fracture
does not move the needle.

App. 29
To be sure, we would have little trouble afﬁrming
sanctions against Carnival if the factual circumstances were slightly different. For example, if Tesoriero’s arm had been visibly fractured, it would be hard
for Carnival to convince us that the decision not to report the injury to security was reasonable, or in keeping with its ordinary policy. Similarly, if there were any
evidence that Tesoriero requested that the chair be
preserved, we would be highly skeptical of a subsequent claim that the chair was disposed of pursuant to
a routine policy. In both of those circumstances, the inference that the chair was destroyed to hide adverse
evidence would be much stronger than it is here.
We will brieﬂy add that even if there were evidence to somehow support a ﬁnding of bad faith, that
would not justify the leap that the dissenting opinion
takes. To begin, no party has cited a persuasive case to
support a presumption of notice as a spoliation sanction, and the one identiﬁed by the dissent falls short.10
10

We note a few things about the exemplar magistrate judge
order cited by the dissent as an example of spoliation leading to
an inference-of-notice sanction. First, the sanction imposed was
the “least-severe sanction available,” and was a “rebuttable, permissible adverse inference that the destroyed evidence would
have demonstrated the existence of a dangerous condition” that
the defendant knew or should have known about. In re the Complaint of Boston Boat III, LLC, 310 F.R.D. 510, 523 (S.D. Fla.
2015) (parenthetical mark omitted). And that light-touch sanction
was imposed in a case that involved dramatic evidence of bad
faith: for starters, the defendant destroyed critical evidence well
after litigation began. Not only that, but the defendant’s attorney
personally observed and failed to stop ongoing destruction, the
plaintiff ’s attorney was not timely notiﬁed of the destruction, and
the defendant presented inconsistent explanations for why the

App. 30
But even more critically, we disagree with the dissent’s
view that “the practical importance of the evidence”
supports sanctions in this case. Flury, 427 F.3d at 945;
ML Healthcare Servs., LLC, 881 F.3d at 1307. Here,
even if the chair had been preserved, it is not clear
what evidence of Carnival’s notice could be deduced
from the already-broken piece of furniture. Joseph
Tesoriero testiﬁed that there was no outwardly visible
defect, Tesoriero herself noticed no problem when she
moved the chair back from the vanity, and the photographic evidence conﬁrms that the peg-and-hole assembly—as well as the state of the glue holding it
together—would have been obscured before the accident. In light of the evidence, and given Tesoriero’s
failure to avail herself of Carnival’s offer to inspect an
identical unbroken cabin chair from the Splendor, we
are unpersuaded that her ability to inspect the broken
chair would have been so important to the notice issue
as to warrant sanctions. We also note our disagreement
with our dissenting colleague’s apparent view that
because evidence of notice would be necessary for
Tesoriero to show a prima facie case of negligence, it
must mean that the chair would have provided the
evidence. Dissenting Op. at 18-19. Respectfully, we fail
to see why one leads to the other; while notice has not
been shown here, it is not because the chair is missing.

evidence was destroyed. Id. at 517-23. The differences between
those facts and the ones in this case speak for themselves. Indeed,
nothing in this case would preclude the sanction applied in that
one.

App. 31
IV.
In conclusion, Tesoriero did not establish that Carnival had actual or constructive notice that the chair
was dangerous. This is fatal to her case. Her failure to
establish the duty element of her negligence claim cannot be cured by her invocation of the res ipsa loquitur
doctrine. And because she has not shown that Carnival
committed sanctionable spoliation of evidence, her
case is not saved through an adverse inference sanction. Accordingly, although we disagree with the reasoning of the district court in some respects, we reach
the same result.
AFFIRMED.

ROSENBAUM, Circuit Judge, dissenting:
When Irina Tesoriero boarded the Carnival Splendor to enjoy some special family time, she never expected the costs of her trip to include two surgeries and
numerous doctor and physical-therapy appointments
totaling more than $120,000 in medical bills. Nor did
Tesoriero realize that her cruise would cost her much
of the use of her dominant right arm and hand. But
that’s the price that Tesoriero has paid because a chair
on the Splendor collapsed as she tried to sit on it.
This case is about who should pay for Tesoriero’s
damages. Under the law, of course, if Carnival was not
negligent, it is entitled to a judgment in its favor, and
Tesoriero must shoulder the burden. On the other

App. 32
hand, if Carnival was negligent, then it has a legal obligation to pay for Tesoriero’s reasonable damages.
But we will never know whether Carnival was
negligent because Carnival destroyed the chair that
caused Tesoriero’s injuries. So conveniently for Carnival, there is no evidence that Carnival had notice of the
chair’s dangerous condition. The panel opinion excuses
Carnival’s destruction of evidence by just accepting
Carnival’s word that it did not destroy the chair in bad
faith. And the panel opinion does so even though Carnival has previously destroyed evidence in other cases
and has been warned by a federal court that its destruction of evidence could result in sanctions, Carnival’s so-called evidence-preservation procedures are
designed to ensure that evidence will be destroyed in
at least some cases and in fact have repeatedly resulted in the destruction of relevant evidence, and Carnival has failed to follow its own evidence-preservation
procedures in several cases, including this one.
To make matters worse—and in stark contrast to
how Carnival allowed the chair here to be destroyed—
Carnival calculatedly preserved evidence favorable to
it from the moment Tesoriero reported her fall onboard
the Splendor.
For these reasons and others I explain below, I respectfully disagree with the panel opinion. The record
here raises a genuine issue of material fact concerning
whether Carnival destroyed the chair in bad faith.
And if a jury were to conclude that Carnival had,
in fact, disposed of the chair in bad faith, Tesoriero

App. 33
would be entitled to an inference that the chair was
evidence favorable to her and detrimental to Carnival.
In particular, that inference could establish that Carnival had notice of—that is, it knew or should have
known about—the unsafe condition of the chair.
After all, Carnival testiﬁed that it repairs broken
chairs when possible. ECF No. 39-1 at 19-20.1 So an
examination of the chair at issue here might have revealed a faulty repair, or it could have shown that the
type of defect that occurred here has happened before
on the very same chair. It also might have suggested
that if, in fact, as Carnival testiﬁed, its employees conducted proper daily inspection of the furniture, Carnival should have known about the chair’s defect through
that program. ECF No. 39-1 at 47-48. Any of these outcomes would have provided evidence that Carnival had
notice of the chair’s dangerous condition. And if
Tesoriero could have shown an issue of fact concerning
notice, her claim would have survived summary judgment. In short, this record raises a genuine issue of
material fact concerning whether Carnival destroyed
the chair in bad faith, and that, in turn, necessarily
means that it raises a genuine issue of material fact as

1

For reasons of transparency, I include pincite references to
the evidence of record. That way, anyone who wishes to follow
along from their armchair may evaluate ﬁrsthand the evidence I
summarize. References are to the district-court ECF number and
the CM/ECF-imprinted page number, except where evidence consists of deposition transcripts. In those cases, references are to the
page numbers of the deposition transcript, since four deposition
transcript pages appear on each CM/ECF-numbered page.

App. 34
to whether Carnival had notice of the defect in the
chair that injured Tesoriero.
For that reason, Tesoriero is entitled to have a jury
decide whether it believes Carnival’s version of the
story. So I would vacate the grant of summary judgment and remand for a trial. Because the panel opinion
erroneously allows a judge (without so much as an evidentiary hearing), instead of a jury, to weigh credibility on the paper record and resolve this genuine issue
of material fact—whether Carnival destroyed the defective chair in bad faith—I respectfully dissent.
I.
The panel opinion correctly sets forth the legal
principles concerning spoliation. But it’s worth emphasizing that the summary-judgment standard applies
equally to spoliation-related facts and other facts material to the resolution of the legal issues before the
district court. After all, “ ‘bad faith’ is a question of fact
like any other.” Bracey v. Grondin, 712 F.3d 1012, 1019
(7th Cir. 2013) (citation and internal quotation marks
omitted).
So we must view the spoliation-related evidence
and any reasonable inferences from it in the light most
favorable to Tesoriero, since she is the non-moving
party. See Al-Rayes v. Willingham, 914 F.3d 1302, 1306
(11th Cir. 2019). That means that if a genuine dispute
of material fact exists over bad faith, and a ﬁnding of
bad faith would support an adverse inference against
Carnival about a fact material to the resolution of the

App. 35
merits here, summary judgment must be denied. As I
explain below, that’s exactly the situation here.
My disagreement, then, lies with the panel opinion’s statement of the facts and its application of spoliation law to those facts. Once we consider all the
evidence—something the panel opinion did not do—we
must conclude that the evidence raises a material issue of fact about whether Carnival destroyed the chair
in bad faith. Speciﬁcally, a reasonable jury could ﬁnd
that Carnival devised and retained policies and procedures designed to result in the destruction of material
evidence in at least some cases, or it created conditions
that made compliance with its evidence-preservation
policies and procedures unlikely, or both.
If a jury reached any of these conclusions, it reasonably could ﬁnd that Carnival destroyed the chair
here in bad faith. And if a jury made that finding,
Tesoriero would be entitled to an adverse inference
that Carnival destroyed the chair because an examination of it could have provided evidence that Carnival
knew or should have known of the chair’s defective condition—a crucial part of Tesoriero’s prima facie case of
negligence against Carnival.
A.
I begin with a little background against which we
must view Carnival’s policies and procedures covering
the preservation of material evidence involved in an
onboard injury. As the panel opinion notes, Carnival
conceded in its responses to Tesoriero’s requests for

App. 36
admissions that “immediately after the incident was
reported [by Tesoriero while onboard the Splendor,
Carnival] anticipated litigation arising from the accident.” ECF No. 65 at 25, 29. Indeed, as Monica Petisco,
Carnival’s corporate litigation representative, admitted, “anytime anything happens onboard, [Carnival]
anticipate[s] litigation.” ECF No. 39-2 at 24.
That is certainly clear from the Passenger Injury
Statement form that Carnival requires its guests to ﬁll
out in their own handwriting as soon as they seek medical attention onboard. See ECF No. 44-8. That Carnival demands the injured passenger prepare the form
in her own handwriting conveniently renders the form
an admission by the passenger for future-litigation evidentiary purposes. See United States v. Williams, 837
F.2d 1009, 1014 (11th Cir. 1988). The form also seeks
to seal the passenger into the details surrounding the
injury, likely before all details are known.
For example, in addition to questions about where
and when an injury occurred and how “in detail” it happened, the form asks the passenger to state what she
“believe[s] caused this accident” and “what [she] could
have done to avoid the accident.” Id. Then the form requires the guest to identify all witnesses to the accident, whether the guest uses glasses or contact lenses
and whether the guest was wearing them at the time
of the accident, and “[w]hat kind of shoes” the guest
was wearing when the accident happened. Id.
Put simply, the Passenger Injury Form appears
designed to preserve for Carnival’s beneﬁt, from the

App. 37
instant an injury occurs, all evidence from the passenger that might assist Carnival in future litigation. Indeed, the speciﬁc information the questions seek
suggests that Carnival has learned much from its past
litigation about the evidence most helpful to it in litigation.
Of course, there is nothing inherently wrong with
that. But those steps differ strikingly from Carnival’s
policies and actual practices concerning preservation
of material tangible evidence that might hurt Carnival
and help a passenger in future litigation. And a reasonable jury might ﬁnd that fact bears on whether Carnival, in good faith, has developed and executes its
policies and procedures to preserve material tangible
evidence.
B.
With this in mind, I review Carnival’s applicable
policies and procedures. According to Carnival’s corporate representatives, Carnival’s security department is
ultimately responsible for maintaining material tangible evidence. ECF No. 39-2 at 48; ECF No. 39-1 at 42.
Yet Carnival’s security department does not even become involved in deciding whether to preserve such evidence unless an accident report is ﬁled. ECF No. 39-2
at 48. According to Petisco, Carnival’s litigation representative, an accident report can be ﬁled in two circumstances. First, a guest can “request that [Carnival]
create an accident report.” Id. And, second, Carnival
“entrusts . . . the [ship’s] doctor to make the

App. 38
determination between reportable or non-reportable
[accidents],” based on whether an injury requires
“[a]nything beyond ﬁrst aid.” Id. at 48–49.
The panel opinion simply assumes without any
analysis that these policies are reasonable. But on
their face, these policies increase in three ways the
likelihood that material evidence will be discarded. Indeed, as Carnival well knows, history has proven that
true. Carnival’s policies have previously resulted in the
destruction of material evidence. And, in fact, at least
one district court has warned Carnival that a pattern
of discarding material evidence could support spoliation sanctions.
1.
I begin by identifying the three ways Carnival’s
policies meaningfully increase the odds that Carnival
will destroy material evidence. First, Carnival’s housekeeping process has no mechanism requiring housekeeping employees to check with the security
department before discarding broken furniture from a
guest’s room. Rather, when furniture in a guest’s room
breaks, Carnival’s policy requires housekeeping staff
to immediately remove and replace the object in question – even if, as happened here, housekeeping removes
the item while the injured passenger remains in the
room and waits for help. ECF No. 39-1 at 41-42.
Once the broken piece is removed, it is taken to
be repaired. Id. at 42. If the furniture cannot be ﬁxed,
it is “usually disposed” of. Id. That does not happen

App. 39
if—and only if—Carnival’s security department afﬁrmatively intervenes and preserves the piece. See id.
So unless the security department jumps in to save
evidence before the housekeeping department throws
it out, evidence is discarded. But of course, the security
department does not intercede if an accident report is
not ﬁled.
Second, and compounding this problem, Carnival’s
shipboard processes falsely cause guests to believe
that they have made an accident report when they
seek medical attention from the ship’s doctor. As I have
noted, when a guest visits the ship’s doctor to address
an injury, she must ﬁll out a Carnival document called
“Passenger Injury Statement.” Besides the other questions the thorough form lists, it asks, “Date [accident]
reported,” “Name of staff member accident reported
to,” “Time reported,” and “If not reported immediately,
please explain why?” ECF No. 44-8. These questions
suggest that a passenger can ofﬁcially report an accident to any “staff member” and that the passenger has
ofﬁcially reported her injury to Carnival when she ﬁlls
out the Passenger Injury Statement. So a passenger
has no reason to ask whether she must do anything
further to make an ofﬁcial report to Carnival to trigger
the security department’s preservation of material evidence. Some might say this form lulls passengers into
a false sense of security that they have fully reported
the incident.
Third, Carnival’s policy leaving it to the discretion
of the ship’s doctor to decide whether an accident report should be ﬁled (and the evidence thus preserved),

App. 40
ensures that accident reports will not be ﬁled in at
least some cases where evidence should be maintained.
Carnival’s policy calls for the ship’s doctor to prepare
an accident report only when the doctor must provide
more than ﬁrst aid. But Carnival does not deﬁne what
it means by “ﬁrst aid.” Rather, that is up for interpretation by each individual doctor.2
And even if we disregard this shortcoming and assume all doctors abide in precisely the same way by
some (unidentiﬁed) universally applicable deﬁnition of
“ﬁrst aid,” the policy wrongly equates a doctor’s assessment that an injury requires no more than ﬁrst aid
with the determination that an injury is not serious
and the piece of furniture causing it should not be preserved. In fact, as is common knowledge, some injuries,

2

Standard references do not uniformly deﬁne the term “ﬁrst
aid.” For example, a medical dictionary deﬁnes “ﬁrst aid” as
“[i]mmediate assistance administered in the case of injury or sudden illness by a bystander or other layperson, before the arrival
of trained medical personnel.” First Aid, Stedman’s Medical Dictionary (28th ed. 2006). A non-medical dictionary deﬁnes “ﬁrst
aid” as “emergency and sometimes makeshift treatment given to
someone (as a victim of an accident) requiring immediate attention where regular medical or surgical care is not available.” First
Aid, Webster’s Third New International Dictionary, Unabridged
(2020), https://unabridged.merriam-webster.com/ (last visited
Mar. 25, 2020). Setting aside the fact that a doctor technically
does not render “ﬁrst aid” under either deﬁnition, these deﬁnitions do not set forth medical standards that identify what treatments, procedures, or remedies are necessarily “ﬁrst aid” and
what are not. As a result, Carnival’s policy does not clearly delineate when a doctor should prepare an accident form.

App. 41
at ﬁrst glance, may appear minor but later manifest
themselves as severe.
Carnival has also not explained why a policy that
depends on the provision of “ﬁrst aid” satisﬁes its duty
to preserve evidence in anticipation of litigation. And
the relationship between the two is not obvious to me.
Nor is it obvious to Carnival, since Carnival anticipates litigation “anytime anything happens onboard”
and preserves evidence favorable to it in every instance, regardless of whether the doctor provides only
“ﬁrst aid.” To rubberstamp a policy that allows Carnival to treat plaintiff-favorable evidence in its control
differently invites gamesmanship. Indeed, the policy
knowingly results in destruction of evidence even
though, by requiring the injured guest to ﬁll out the
Injury Statement Form to receive medical attention,
Carnival simultaneously preserves evidence favorable
to itself, in anticipation of litigation, when a doctor
does not ﬁle an accident report.
2.
This case demonstrates some of these pitfalls.
First, this case appears to have involved more
than ﬁrst aid, but according to Carnival, the doctor did
not ﬁle an accident report. Here, the doctor took X-rays
of Tesoriero’s arm. X-ray equipment is not in any
standard first-aid kit I’ve ever seen. Plus here, the
doctor sent the X-rays off the ship to Miami to be
read—a process that would not be completed until

App. 42
after Tesoriero left the ship. Seeking consultation from
a specialist physician, like taking X-rays in the ﬁrst
place, seems like more than “ﬁrst aid.” (But then again,
we can’t look to Carnival’s policy for guidance on that).
If the Miami doctor had found a break in Tesoriero’s
arm, neither Tesoriero nor the ship’s doctor would have
known until after the cruise ended. In fact, it is not
clear the ship’s doctor ever would have learned of the
break. But because Carnival left ﬁling an accident report to the doctor’s discretion and, according to Carnival, the doctor did not do that (more on this later, see
infra at 14–15), the chair was discarded—before the
ship’s doctor even had conﬁrmation about whether
Tesoriero’s arm was broken.
As it turned out, according to Tesoriero’s medical
records, Tesoriero’s X-ray “was read as a hairline fracture.”3 ECF No. 44-11 at 10. And her follow-up medical
3

The panel opinion takes issue with this statement because
it says that “Tesoriero does not argue . . . that her arm was broken.” See Maj. Op. at 25 n.8. True, she doesn’t. But that misses
the point. The point is that the X-ray taken by the ship’s doctor
was read by a medical professional as showing a serious enough
injury to require more than simple ﬁrst aid. As for the derivation
of that statement, it comes from Tesoriero’s independent medical
examination report, which a Board-certiﬁed orthopedic surgeon
conducted. More specifically, it appears in his review of Tesoriero’s
medical records from July 1, 2015, four days after the incident.
The surgeon reported that a medical professional who examined
Tesoriero on July 1 stated in Tesoriero’s visit notes that Tesoriero
“had an [X]-ray on the cruise that was read as a hairline fracture.”
ECF No. 44-11 at 10. Presumably, that refers to the Miami specialist’s reading of the X-ray the ship’s doctor took, because the
ship’s medical center advised Tesoriero that the ship’s doctor (who
told Tesoriero he didn’t think her arm was broken but he couldn’t

App. 43
care showed that she had “a focus of T2 hyperintensity
at the insertion of the common extensor tendon on the
lateral humeral epicondyle consistent with a partial
tear.” Id. As a result, Tesoriero was “unable to drive
without pain and unable to carry anything.”4 Id. By
any deﬁnition, that is certainly an injury requiring
more than ﬁrst aid.
Second, even if we assume Tesoriero’s injury required only mere “ﬁrst aid” while she was onboard the
Splendor, there can be no question that Tesoriero, in
fact, suffered a serious injury. I have already recounted
the lasting pain the injury has caused Tesoriero. And
because of her injury onboard the Splendor, Tesoriero
conﬁrm) “didn’t have full expertise to read an X-ray, and it would
be shipped to Miami, and they would give [Tesoriero] an answer,”
which would happen after she left the cruise ship. ECF No. 39-3
at 74. The medical facility Tesoriero visited on July 1 then took a
new X-ray that “revealed no acute fracture.” ECF No. 44-11 at 10.
That a new X-ray taken four days after the incident did not show
an “acute fracture” does not mean that an X-ray taken four days
earlier did not show a “hairline fracture.” By their nature, “hairline” fractures can be difﬁcult to see, and the intervening time
between the initial X-ray and the later one could have made any
“hairline” fracture that may have existed at one time even harder
to see, to the extent that it continued to exist.
4
Tesoriero also testiﬁed,
I can’t carry the garbage. I can’t carry the laundry. I
can’t empty or pick up heavy pots. Cooking is very restrictive in terms of getting things in and out of an
oven. Carrying groceries, doing grocery shopping, opening a bottle of water, twisting actions. I can’t peel potatoes. I can’t peel carrots. I can’t ﬂip pancakes. I can’t
put any pressure on—like when you peel an apple.
ECF No. 39-3 at 52.

App. 44
had to undergo two surgeries, physical therapy, and
other medical treatment after her cruise ended—resulting in medical expenses of more than $120,000.
ECF No. 44-11 at 14. If the doctor’s failure to ﬁle an
accident report here was consistent with Carnival policy, a reasonable jury could conclude that Carnival’s
policy is unreasonable, or even that it was created in
bad faith. After all, under the panel opinion’s analysis,
Carnival’s policy that ensures destruction of evidence
in these circumstances is precisely what shields it from
potential liability and any consequences of destroying
the evidence.
Tellingly, this is not the ﬁrst case where Carnival
has destroyed material evidence, supposedly in accordance with its policies. For example, in Morhardt v. Carnival Corp., Morhardt used a ship hair dryer, which
electrocuted him and burned and blackened his hand.
304 F. Supp. 3d 1290, 1292–93 (S.D. Fla. 2017). He immediately went to the ship’s inﬁrmary for treatment.
Id. at 1293. Yet Carnival threw out the hair dryer involved in the incident. Id. at 1297.
The district court in Morhardt described Carnival’s actions as being “a matter of keen concern.” Id.
And the court noted that it was “aware of other cases
in which a plaintiff passenger was injured aboard a
Carnival cruise ship and the object that purportedly
caused the injury was immediately discarded.” Id. at

App. 45
1297 n.6 (citing Walter v. Carnival Corp., No. 09-20962CIV, 2010 WL 2927962 (S.D. Fla. July 23, 2010)).5 Signiﬁcantly, the court “caution[ed] Carnival against establishing a pattern or practice of discarding such
objects because such actions could potentially provide
a basis for spoliation sanctions or liability in the future.” Id.
The panel opinion ﬁnds it “unclear how . . . three
district court cases that decline to offer any relief based
on spoliation or discarding evidence should persuade
[the panel opinion] that sanctions are appropriate
here.” Maj. Op. at 23-24 n.7. And somehow, it thinks the
fact that “2 of the 3 cases involved collapsing chairs”
strengthens its view that sanctions are not appropriate
here. Id. In my view, the opposite is true.
At some point, adherence to policies Carnival
knows from past litigation result in the destruction of
material evidence—especially when Carnival anticipates litigation and simultaneously employs policies
designed to preserve evidence favorable to it—constitutes bad faith. This is particularly the case here because a federal court has already expressly warned
Carnival that its continuing failure to maintain material evidence may result in spoliation sanctions. Surely,
the mere fact of the existence of Carnival’s policies
(that it knows result in destruction of material evidence)—even if Carnival complied with them—cannot
5

See also Hickman v. Carnival Corp., No. 04-20044-CIV,
2005 WL 3675961 (S.D. Fla. July 11, 2005) (Carnival “almost immediately” repaired bar stool involved in incident, instead of preserving it).

App. 46
indeﬁnitely shield Carnival from liability and consequences of any type.
Indeed, we suggested as much when we held that
one of the factors relevant to whether spoliation sanctions should be imposed is “the potential for abuse if
sanctions are not imposed.” ML Healthcare Servs., LLC
v. Publix Super Mkts., Inc., 881 F.3d 1293, 1307 (11th
Cir. 2018) (citing Flury v. Daimler Chrysler Corp., 427
F.3d 939, 945 (11th Cir. 2005)). Yet to excuse Carnival’s
destruction of evidence, the panel opinion allows Carnival to continue to hide behind the very policies Carnival knows result in destruction of evidence. A jury
should be allowed to determine whether Carnival has
reached the point where its policies that have previously proven to result in destruction of evidence can no
longer shield it from liability.
C.
Even if a jury rejected the notion that Carnival’s
failure to modify its policies to prevent material evidence from being destroyed demonstrates bad faith, a
reasonable jury could still conclude that Carnival
failed to ensure compliance with its preservation policies here. And a jury that made that ﬁnding could conclude that Carnival’s failure to abide by its own policies
shows bad faith in and of itself.
To begin with, Tesoriero reported her incident
with the chair literally at least ﬁve different ways to

App. 47
Carnival while she was still onboard her cruise.6 And
after she told Dr. Milos Potkonjak, the ship’s doctor, he
advised her that a health-and-safety ofﬁcial on the
ship would speak with her about her injury. ECF No.
39-3 at 100-01. Even Carnival conceded in its answers
to Tesoriero’s requests for admissions that “the accident in this case was reported to the Defendant cruise
line on the cruise on which the incident occurred.” ECF
No. 65 at 25, 29. Yet the chair was not preserved.
Despite all these reports to Carnival employees in
various cruise line positions, Carnival made no effort
to preserve the chair involved in the injury. And though
6

First, Tesoriero’s husband Joseph called Guest Services, reported the incident, and asked for immediate medical attention.
ECF No. 39-3 at 65-66; ECF No. 44-3 at ¶ 5; ECF No. 39-6 at 3.
Second, when the cabin steward went to the Tesorieros’ room and
removed the broken chair, the Tesorieros told him that Tesoriero
believed she had broken her arm and that they had called for help,
and they asked him whether a doctor would be coming to the
room. ECF No. 39-3 at 67. Third, when no doctor arrived at the
Tesorieros’ room after half an hour, the Tesorieros went to the
inﬁrmary to seek medical attention. Id. at 72–73. It was closed,
but they found a nurse and told her about Tesoriero’s injury. Id.
at 73. She got Dr. Potkonjak, and the Tesorieros told him about
the injury. Id.; ECF No. 44-3 at ¶ 6. Fourth, Dr. Potkonjak gave
the Tesorieros a Passenger Injury Statement to ﬁll out, which reported the incident yet again. ECF No. 39-3 at 68; see also ECF
No. 44-8. And ﬁnally, while still onboard the cruise, Tesoriero also
reported her injury to the front-desk supervisor on the ship, seeking a document stating that she would get her X-rays back. ECF
No. 39-3 at 100. Carnival’s responses to Tesoriero’s interrogatories also indicate that Tesoriero “interacted with . . . I Care personnel” about her injury, ECF No. 39-6 at 3, but it is not clear
whether the “I Care personnel” she spoke with included any of the
Carnival employees previously identiﬁed.

App. 48
the ship’s doctor advised Tesoriero that a health-andsafety ofﬁcial would speak with her concerning her injury, no one ever did.
This reference to a health-and-safety ofﬁcial appears to be a reference to Carnival’s security department. If so, that means the doctor apparently thought
he was making a report to the security department,
even though Carnival has no record of any such report.
But once again conveniently for Carnival but inconveniently for Tesoriero, sixteen days after Tesoriero’s
injury occurred, Carnival did not renew Dr. Potkonjak’s
contract and provided “his last known address” as, in
its entirety, “Biograd, Croatia.”7 ECF No. 39-6 at 3. As
a result, checking with Dr. Potkonjak would appear to
be difﬁcult, if not impossible.
If a reasonable jury concluded that the destruction
of the chair was a consequence of Carnival’s failure to
follow its own policies, it could also reasonably ﬁnd
that Carnival’s shortcomings resulted from its bad
faith. First, the mere fact that Tesoriero made ﬁve different reports of the incident and the chair was still
destroyed—even though Carnival anticipated litigation—could reasonably be construed as evidence that

7

Tesoriero testiﬁed that Dr. Potkonjak informed her when
she went to the medical center that “it was his ﬁrst day on the
ship.” ECF No. 39-3 at 73-74. If that also meant that the date of
Tesoriero’s injury was Dr. Potkonjak’s ﬁrst date of employment
with Carnival, then Carnival employed Dr. Potkonjak for a total
of seventeen days.

App. 49
Carnival acted in bad faith when it failed to follow its
policies here.
Second, that Dr. Potkonjak apparently believed he
reported the incident to the security department but
no record of that was ever made and that he is now
unavailable for questioning similarly could be viewed
as suggesting that Carnival acted in bad faith when it
threw away the chair.
And ﬁnally, this is not the ﬁrst case where Carnival’s failure to follow its own preservation policies has
resulted in the destruction of evidence. In Walter, Carnival discarded a deck chair that collapsed under the
passenger there. 2010 WL 2927962, at *1. The chair in
that case was lost, even though Carnival employees
prepared an accident report. Id. at *2. And just over a
year ago, Carnival lost CCTV footage of a guest’s fall,
even though Carnival conceded it had a duty to preserve that evidence. Sosa v. Carnival Corp., No. 1820957-CIV, 2018 WL 6335178, *1 (S.D. Fla. Dec. 4,
2018). The magistrate judge considering a motion for
sanctions against Carnival in that case described Carnival’s position as (1) “ ‘[c]’est la vie’ (‘that’s life,’ or
‘that’s how things happen’) and (2) ‘stuff happens.’ ”8
Id.
No wonder Carnival has that attitude. Carnival
keeps discarding material evidence, and that keeps
8

See also Wilford v. Carnival Corp., No. 17-21992-CIV, 2019
WL 2269155 (S.D. Fla. May 28, 2019) (Carnival could not locate
and produce X-rays its medical personnel took in an onboard medical clinic after the plaintiff slipped and fell onboard).

App. 50
working to its advantage. So why would it ever do anything to remedy its compliance with its own policies?
A reasonable jury viewing these facts could conclude that Carnival’s failure to strictly adhere to its
stated policies betrayed bad faith on Carnival’s part.
And if a jury reached that conclusion, Tesoriero
would be entitled to an inference that Carnival destroyed the chair because it would have provided evidence that Carnival knew or should have known of the
chair’s unsafe condition. Though many courts have observed that “courts must not hold the prejudiced party
to too strict a standard of proof regarding the likely
contents of the destroyed evidence because doing so allows the spoliators to proﬁt from the destruction of the
evidence,” In the Matter of: the Complaint of Boston
Boat III, LLC, 310 F.R.D. 510, 521 (S.D. Fla. 2015) (citations and internal quotation marks omitted) (collecting cases); see also Kronisch v. United States, 150 F.3d
112, 128 (2d Cir. 1998), here, it is clear that the missing
chair could have provided Tesoriero with critical evidence that Carnival knew or should have known that
its chair was defective.
As I have explained, an examination of the chair
that actually collapsed could have revealed that Carnival had previously ﬁxed that same chair in the same
place. Or it could have shown that Carnival had previously repaired another part of the chair, which caused
stress on the joint that separated. Or it could have betrayed that its housekeeping staff did not in fact move
and check the furniture daily, as Carnival testiﬁed it

App. 51
did, because if it did, it should have been aware of the
chair’s defective condition. Any of these revelations
would have shown that Carnival either knew or should
have known that the chair was not ﬁt for continued
use.
And contrary to the panel opinion’s suggestion, see
Maj. Op. at 26-27, it is obvious that examination of a
similar chair would not reveal any of these things that,
if they existed, would have occurred in only the chair
involved in the incident.
Joseph’s amateur photographs do not save the day
for Carnival, either. See id. at 27. They are a poor substitute for the actual chair, which could have permitted
sampling of the glue that allowed the joint to separate
(as well as examination for more than one application
of glue, as in a repair of the chair joint) and inspection
of the rest of the anatomy of the chair to determine
whether a repair to a part of the chair that was not
photographed could have placed extra stress on the
part of the chair that separated.
Similarly, I respectfully disagree with the panel
opinion that Joseph’s brief looking over of the chair
while his wife was writhing in pain and the two were
waiting for medical attention qualiﬁes as a thorough
examination that would have revealed any of these
problems with the defective chair if they existed. See
id.
As for the panel opinion’s contention that an examination would not have revealed that housekeeping
staff knew or should have known of the defect because

App. 52
“Tesoriero herself noticed no problem when she moved
the chair back from the vanity,” id., there is a signiﬁcant difference between pulling a chair out about a foot
from a vanity as a prerequisite to grooming, and cleaning and checking furniture as part of job duties, as the
Carnival staff was charged with doing. Plus, even if we
assume no difference, Tesoriero’s failure to notice a
problem with the chair when she pulled it out would
not establish that Carnival had not previously repaired that same chair or that the chair had not broken
before in the same place.
Notice is the one thing that Tesoriero could not establish on summary judgment without the beneﬁt of
an examination of the chair. Because showing notice is
an element of her claim for negligence, and because inspecting the chair may well have provided the necessary evidence that Carnival knew or should have
known of the chair’s defective condition, the chair qualiﬁes as crucial evidence.
The panel opinion suggests that proof of notice is
somehow exempt from the regular rules that govern
the imposition of spoliation sanctions. See id. at 26. But
the only support it offers for this novel notion is its assertion that “no party has cited a persuasive case to
support a presumption of notice as a spoliation sanction, and the one identiﬁed by the dissent falls short.”
Id.
Most respectfully, the panel opinion is doubly
wrong. First, as the panel opinion indicates, sanctions
for bad faith are appropriate when “the practical

App. 53
importance of the evidence” is signiﬁcant. Maj. Op. at
21 (quoting Flury, 427 F.3d at 942). It does not make a
difference why the evidence is important; all that matters is that the evidence has “practical importance.”
Obviously, evidence that proves a necessary element
of a plaintiff ’s prima facie case is “practical[ly] important” when the plaintiff cannot establish that element without it. See Palmas & Bambu, S.A. v. E.I.
Dupont De Nemours & Co., Inc., 881 So. 2d 565, 582
(Fla. Dist. Ct. App. 2004) (noting that “where evidence
necessary to prove a prima facie case is missing due to
actions of a party, an essential element of a claim may
be presumed” (citing Pub. Health Tr. of Dade Cty. v.
Valcin, 507 So. 2d 596, 599 (Fla 1987))).9 Notice is a
necessary element of Tesoriero’s prima facie case of
negligence. And as I have explained, an examination of
the defective chair may well have proven that Carnival
knew or should have known of the chair’s condition.
So upon a ﬁnding of bad faith, it would have been appropriate for a court to give a spoliation sanction concerning that necessary evidence.10
9

We have explained that while federal law governs the imposition of spoliation sanctions, our opinion concerning sanctions
can be “informed by [state] law” when, as here, it is consistent
with federal spoliation principles. Flury, 427 F.3d at 943, 944.
10
The panel opinion asserts that I espouse the position “that
because evidence of notice would be necessary for Tesoriero to
show a prima facie case of negligence, it must mean that the chair
would have provided the evidence.” Maj. Op. at 27. Nonsense. No
fair reading of my dissent could support the panel opinion’s claim.
Indeed, as I have explained two other times in this dissent, see
supra at 29, 44, an examination of the defective chair in this case
could have yielded evidence that Carnival knew or should have

App. 54
Second, courts have in fact awarded spoliation
sanctions when destroyed evidence might have proven
notice. In Boston Boat, for example, the court imposed
a spoliation presumption “that the destroyed evidence
would have demonstrated the existence of a dangerous
condition which Boston Boat knew about, should have
known about or created.” 310 F.R.D. at 523 (emphasis
added). The panel opinion’s attempt to distinguish
Boston Boat on the dual bases that it imposed only a
“rebuttable, permissible adverse inference” and that it
“involved dramatic evidence of bad faith” once again
misses the point. The point here is that when a court
ﬁnds that evidence was destroyed in bad faith, spoliation sanctions can appropriately be imposed to establish a presumption of notice where the destroyed
evidence itself, had it not been discarded, could have
proven notice.
Here, for the reasons I have explained, the defective chair that Carnival destroyed may well have
proven that Carnival had notice of the chair’s dangerous condition, had Carnival not discarded the piece
of furniture. So given an opportunity to evaluate the
known of the chair’s dangerous condition—that is, evidence of
notice. Those explanations amply demonstrate the practical importance of the destroyed chair. See Kronisch, 150 F.3d at 128
(“[C]are should be taken not to require too speciﬁc a level of proof
[because] . . . holding the prejudiced party to too strict a standard
of proof regarding the likely contents of the destroyed evidence
would subvert the prophylactic and punitive purposes of the adverse inference, and would allow parties who have intentionally
destroyed evidence to proﬁt from that destruction.” (citation and
internal quotation marks omitted)).

App. 55
witnesses and other evidence at trial, a jury reasonably could have concluded, upon a sanctions-based presumption instruction, that an inspection of the chair
would have revealed that Carnival knew or should
have known of its dangerous condition. Since that is
the case, particularly on a motion for summary judgment, where we must construe the facts in favor of the
non-moving party, Tesoriero has established a material
issue of fact concerning whether Carnival discarded
the chair in bad faith.
Because a material question of fact exists as to the
bad-faith issue, the district court should not have
granted summary judgment. Rather, the court should
have allowed a jury to resolve the bad-faith question of
fact, along with all the other disputes of relevant fact
in the case.11 Vodusek v. Bayliner Marine Corp., 71 F.3d
148, 157 (4th Cir. 1995) (“We conclude that the district
court acted within its discretion in permitting the jury
to draw an adverse inference if it found that Vodusek
or her agents caused destruction or loss of relevant evidence. Rather than deciding the spoliation issue itself,
the district court provided the jury with appropriate
11

At the very least, the district court should have held an
evidentiary hearing on the issue instead of resolving the material
issue of fact against Tesoriero on the papers. Cf. McDonald’s
Corp. v. Robertson, 147 F.3d 1301, 1311 (11th Cir. 1998) (noting
in the context of a motion for preliminary injunction that it is an
abuse of discretion to fail to hold an evidentiary hearing where
facts central to a party’s claims are disputed); Oldﬁeld v. Pueblo
De Bahia Lora, S.A., 558 F.3d 1210, 1216 (11th Cir. 2009) (“Because the material facts relating to the personal jurisdiction issues were not in dispute, there was no need for an evidentiary
hearing.”).

App. 56
guidelines for evaluating the evidence.”); Kronisch, 150
F.3d at 128 (“We believe that plaintiff has produced
enough circumstantial evidence to support the inference that the destroyed MKULTRA ﬁles may have contained documents supporting (or potentially proving)
his claim, and that the possibility that a jury would
choose to draw such an inference, combined with plaintiff ’s circumstantial evidence, is enough to entitle
plaintiff to a jury trial.”); United States v. Laurent, 607
F.3d 895, 902 (1st Cir. 2010) (“A ‘spoliation’ instruction,
allowing an adverse inference, is commonly appropriate in both civil and criminal cases where there is evidence from which a reasonable jury might conclude
that evidence favorable to one side was destroyed by
the other.” (citing 4 L. Sand et al., Modern Federal Jury
Instructions § 75.01 (instruction 75-7), at 75-16 to -18
(2010))).
The panel opinion simply concludes that Carnival
acted consistently with its policies and that its policies
do not “somehow establish bad faith.” Maj. Op. at 23.
But for the reasons I have explained, the record viewed
in the light most favorable to Tesoriero cannot support
that conclusion. So vacatur of the district court’s entry
of summary judgment and remand for trial is warranted here.

App. 57
II.
Because Tesoriero has shown a material issue of
fact with respect to bad faith concerning Carnival’s disposal of the chair, summary judgment should not have
been granted in this case. I therefore respectfully dissent.

App. 58
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 16-cv-21769-WILLIAMS
IRINA TESORIERO,
Plaintiff,
vs.
CARNIVAL CORPORATION,
Defendant.

/
ORDER

(Filed Mar. 23, 2018)
THIS MATTER is before the Court on Magistrate
Judge Edwin G. Torres’s report and recommendation
(the “Report”) regarding the Parties’ cross motions for
summary judgment (DE 38; DE 39). The report recommends that Defendant’s motion be granted and Plaintiff ’s motion denied. Plaintiff ﬁled objections to the
report on October 6, 2017 (DE 65) and Defendant ﬁled
a reply on October 19, 2017 (DE 66).
The Court has independently reviewed Judge
Torres’ comprehensive, 62-page Report; the objections
and reply to the Report; the brieﬁng ﬁled by the Parties; and the record. For the reasons set out in the
Report, the Court agrees that Defendant is entitled to
summary judgment. Specifically, the Court agrees
that Plaintiff has failed to produce evidence that
would create a genuine issue of material fact regarding
the absence of actual or constructive notice of the

App. 59
risk-creating condition. Plaintiff maintains that notice
is not required in cases where the doctrine of res ipsa
loquitur applies, or in cases where Plaintiff has alleged
negligent maintenance. But Judge Torres’ detailed Report contains a very thorough analysis of these alternative arguments, and concludes that neither of those
arguments warrant a denial of Defendant’s summary
judgment motion, because they are either not legally
or are not factually supported on this record. The Court
agrees. Finally, the Court notes that the arguments regarding Carnival’s failure to preserve the broken chair
that are presented in Plaintiffs motion for summary
judgment, as discussed in the Report, do not amount to
spoliation such that an adverse inference is warranted.
In her objections, Plaintiff contends that the Report misapplied the res ipsa standard under Maritime
Law, that it erroneously rejected Plaintiff ’s negligent
maintenance arguments, that it reached an erroneous
conclusion regarding whether the cruise ship had constructive notice of the dangerous condition and on the
issue of spoliation, and that it misapplied the summary
judgment standard. The Court has considered Plaintiffs arguments with regard to each of these claims—
which reiterate a number of the arguments made in
their initial briefs—and ﬁnds them unavailing.
Accordingly, it is ORDERED AND ADJUDGED
as follows:
1.

The conclusions in the Report (DE 62) are AFFIRMED AND ADOPTED as set out above.

App. 60
2.

Defendant’s Motion for Summary Judgment
(DE 38) is GRANTED. Plaintiffs Motion for
Summary Judgment (DE 39) is DENIED.

3.

All remaining motions are DENIED AS
MOOT.

DONE AND ORDERED in Chambers in Miami,
Florida, this 23rd day of March, 2018.
/s/ [Illegible]
KATHLEEN M. WILLIAMS
UNITED STATES DISTRICT
JUDGE

App. 61
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 16-cv-21769-WILLIAMS
IRINA TESORIERO,
Plaintiff,
vs.
CARNIVAL CORPORATION,
Defendant.

/

FINAL JUDGMENT
(Filed Apr. 4, 2018)
THIS MATTER is before the Court following the
entry of an order granting Defendant’s motion for summary judgment (DE 75). Accordingly, it is ORDERED
AND ADJUDGED as follows:
1.

Judgment is entered in favor of Defendant
Carnival Corporation and against Plaintiff Irina Tesoriero. Plaintiff Irina Tesoriero shall
take nothing from her claims.

2.

All remaining motions are DENIED AS
MOOT. The Clerk of the Court is directed to
CLOSE this case.

App. 62
DONE AND ORDERED in Chambers in Miami,
Florida, this 3rd of April, 2018.
/s/ [Illegible]
KATHLEEN M. WILLIAMS
UNITED STATES DISTRICT
JUDGE

App. 63
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 16-21769-Civ-WILLIAMS/TORRES
IRINA TESORIERO,
Plaintiff,
v.
CARNIVAL CORPORATION
d/b/a CARNIVAL CRUISE
LINES a/k/a CARNIVAL
CRUISE LINE,
Defendant.

/

REPORT AND RECOMMENDATION
ON THE PARTIES’ CROSS MOTIONS
FOR SUMMARY JUDGMENT
(Filed Sep. 22, 2017)
This matter is before the Court on the parties’
cross motions for summary judgment ﬁled by Carnival
Corporation’s d/b/a Carnival Cruise Lines (“Defendant” or “Carnival”) [D.E. 38] and Irina Tesoriero
(“Plaintiff ”) [D.E. 39]. After Plaintiff and Defendant
timely ﬁled their respective responses and replies
[D.E. 44-47], both of their motions are now ripe for disposition. After careful consideration of the motions, responses, replies, relevant authorities, the record in this
case, and for the reasons discussed below, Defendant’s
motion should be GRANTED, Plaintiff ’s motion
should be DENIED, and ﬁnal judgment entered.

App. 64
TABLE OF CONTENTS
I.

BACKGROUND .........................................

2

II. APPLICABLE PRINCIPLES AND LAW ....

3

III.

ANALYSIS .................................................

4

A. Defendant’s Motion for Summary
Judgment [D.E. 38] ..............................

4

1. Whether Carnival’s Motion Fails to
Comply with Rule 56 ......................

5

2. Carnival’s Duty of Care under Federal Maritime Law ..........................

8

3. Whether Carnival had Actual or
Constructive Notice ........................ 10
4. Whether Actual or Constructive
Notice is Always Required .............. 19
(a) Effect of Res Ipsa Loquitur Doctrine on Notice Requirement .... 20
(b) Effect of Negligence Maintenance Claim on Notice Requirement .......................................... 25
5. Whether Res Ipsa Loquitur May be
Invoked in This Case ...................... 27
(a) The Element of Legally Exclusive Control of the Chair ........... 30
(b) A Collapsing Chair Does not
Satisfy the Third Element ........ 33
B. Plaintiff ’s Motion for Summary
Judgment [D.E. 39] ......................... 50
IV.

CONCLUSION ........................................... 61

App. 65
[2] I.

BACKGROUND

This action arises from an accident that occurred
on June 26, 2015 at approximately 7:30 pm while
Plaintiff sat on a chair in her cabin onboard the Carnival Splendor. Plaintiff claims that when she sat down
on the chair, it suddenly collapsed, causing personal injuries, including an injury to her right arm.1 The injury
occurred when the chair allegedly came apart at the
joints where the right front leg of the chair attaches to
the seat and body of the chair. Plaintiff claims that
Carnival was negligent and that her injury occurred
because Carnival failed to warn, inspect, maintain, and
repair the furniture in question.
Stateroom stewards assigned to each cabin are
tasked with the responsibility of inspecting the condition of the cabin furniture and identifying any maintenance issues. These stewards service the cabin daily
and their responsibilities include cleaning and checking all of the furniture to ensure that everything is
structurally sound. They visually inspect the furniture
and touch it to identify if anything is damaged or needs
to be replaced or repaired. If a stateroom steward identiﬁes any problems with the furniture, the issue is reported and recorded. And if a chair needs repair, it is
immediately removed from a room. In the three years
prior to Plaintiff ’s incident, there was one other

1

As a result of the accident, Plaintiff has allegedly suffered
severe, debilitating, and permanent injuries to her right arm
which has thus far required two surgeries.

App. 66
incident where a passenger was injured because of a
defective chair.2
[3] II.

APPLICABLE PRINCIPLES AND LAW

“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law. FED. R. CIV. P. 56(a).
A party asserting that a fact cannot be or is
genuinely disputed must support the assertion by: (A) citing to particular parts of materials in the record, including depositions,
documents, electronically stored information,
afﬁdavits or declarations, stipulations (including those made for purposes of the motion
only), admissions, interrogatory answers, or
other materials; or (B) showing that materials
cited do not establish the absence or presence
of a genuine dispute, or that an adverse party
cannot produce admissible evidence to support the fact.
FED. R. CIV. P. 56(c)(1). “On summary judgment the inferences to be drawn from the underlying facts must
be viewed in the light most favorable to the party opposing the motion.” Matsushita Electric Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 597 (1986) (quoting
another source).

2

The prior accident occurred in a different cabin and involved an outside metal balcony chair whereas the cabin chair at
issue in this action was made out of wood.

App. 67
In opposing a motion for summary judgment, the
nonmoving party may not rely solely on the pleadings,
but must show by afﬁdavits, depositions, answers to interrogatories, and admissions that speciﬁc facts exist
demonstrating a genuine issue for trial. See FED. R.
CIV. P. 56(c); Celotex Corp. v. Catrett, 477 U.S. 317, 323–
24 (1986). The existence of a mere “scintilla” of evidence in support of the nonmovant’s position is insufﬁcient; there must be evidence on which the jury could
reasonably ﬁnd for the nonmovant. See Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 252 (1986). “A court
need not permit a case to go to a jury . . . when the inferences that are drawn from the evidence, or upon
which the non-movant relies, are [4] ‘implausible.’ ”
Mize v. Jefferson City Bd. Of Educ., 93 F. 3d 739, 743
(11th Cir. 1996) (citing Matsushita, 475 U.S. at 592–
94).
At the summary judgment stage, the Court’s function is not to “weigh the evidence and determine the
truth of the matter but to determine whether there is
a genuine issue for trial.” Anderson, 477 U.S. at 249. In
making this determination, the Court must decide
which issues are material. A material fact is one that
might affect the outcome of the case. See id. at 248
(“Only disputes over facts that might affect the outcome of the suit under the governing law will properly
preclude the entry of summary judgment. Factual disputes that are irrelevant or unnecessary will not be
counted.”). “Summary judgment will not lie if the dispute about a material fact is ‘genuine,’ that is, if the

App. 68
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Id.
III.
A.

ANALYSIS

Carnival’s Motion for Summary
Judgment [D.E. 38]

Carnival’s motion seeks summary judgment
against Plaintiff because a prerequisite to the imposition of liability on a cruise ship operator is that the
operator must have actual or constructive notice of a
dangerous or risk-creating condition. Carnival argues
that there is no evidence that it was ever on notice, either actual or constructive, of any alleged-risk creating
condition with the chair in question prior to Plaintiff ’s
use. Because there is purportedly no evidence that
supports Plaintiff ’s claims under a negligence theory,
Carnival argues that Plaintiff essentially seeks to hold
it strictly liable as an insurer of her safety on the
cruise. [5] Carnival contends that this is not the law
and that Plaintiff is unable to demonstrate the existence of a genuine issue of material fact on the question
of whether Carnival had actual or constructive notice.
Carnival seeks summary judgment as a matter of law
on all of Plaintiff ’s claims.
Plaintiff ’s response is that Carnival spoliated the
evidence (allegedly eviscerating the notice requirement) and limited itself to a challenge only on a single
theory of negligence liability in Plaintiff ’s complaint –
notice and the duty to warn. Plaintiff also argues that
res ipsa loquitur applies, so actual or constructive

App. 69
notice is not required. And even if notice was required
in this action, Plaintiff suggests that there are three
persuasive reasons why Carnival had constructive notice of the defective chair. Accordingly, Plaintiff contends that Defendant’s motion lacks any merit and
should be denied.
1.

Whether Carnival’s Motion Fails
to Comply with Rule 56

As an initial procedural matter, Plaintiff argues
that Carnival’s motion can be summarily denied because Carnival only challenges Plaintiff ’s “duty to
warn” theory of negligence, but fails to challenge Plaintiff ’s “negligent maintenance” theory. As support,
Plaintiff relies on the Eleventh Circuit’s unpublished
decision in Frasca v. NCL (Bahamas), Ltd., 654 F. App’x
949, 955 (11th Cir. 2016). In that case, the Eleventh
Circuit found that Plaintiff alleged a failure to warn
and negligent maintenance as two separate theories
under one count of negligence. After defendant moved
for summary judgment, both parties ﬁeld a joint stipulation of facts in which plaintiff stated that defendant
did not take appropriate action to [6] maintain the
deck in question. In response, defendant moved in
limine to exclude all evidence of theories not presented
in plaintiff ’s complaint, including a theory of negligent
construction and maintenance of the deck. The district
court addressed the motion in limine in its summary
judgment order, and improperly granted summary
judgment in favor of defendant without ﬁrst giving notice to plaintiff and a reasonable time to respond to

App. 70
defendant’s arguments. See FED. R. CIV. P. 56(f ). Because there was no evidence to suggest that the district
court provided the parties such notice, the district
court erred by sua sponte entering summary judgment
in favor of defendant on plaintiff ’s negligent maintenance claim.
Here, Plaintiff suggests that Carnival’s motion
does not identify Plaintiff ’s claim for negligent maintenance and does not even refute the application of res
ipsa loquitur. Instead, Carnival allegedly only mentions in its introduction that “[t]hat there is no evidence that Carnival was on notice, either actual or
constructive, of any alleged-risk creating condition
with the chair prior to Plaintiff ’s use.” [D.E. 38]. Carnival’s failure to seek summary judgment on the negligent maintenance theory is allegedly fatal to
Carnival’s motion because the adjudication of Plaintiff ’s claims is now inappropriate under Federal Rule
of Civil Procedure 56. See, e.g., Gentry v. Harborage
Cottages–Stuart, LLP, 654 F.3d 1247, 1261 (11th Cir.
2011) (“In this case, the court entered judgment on
claims not identiﬁed by Plaintiffs in their Rule 56 motion and without advance notice. This was error.”).
Carnival’s response is that Plaintiff incorrectly
states that judgment may not be granted on a theory
of liability not addressed in a party’s motion for summary [7] judgment. Carnival believes that this is a
clear misstatement of Federal Rule of Civil Procedure
56, which requires that a party identify “each claim or
defense” on which summary judgment is sought. FED.
R. CIV. 56(a). Carnival also suggests that this case does

App. 71
not involve a sprawling multi-count complaint, but
that Plaintiff sued for one claim: negligence. Thus,
Plaintiff ’s contention that Carnival only moved for
summary judgment on the “duty to warn” aspect of her
negligence claim is supposedly belied by the record.
Carnival points out that in its motion, Carnival recognized that Plaintiff ’s negligence claim included allegations that Carnival failed to “inspect, maintain, and
repair: the furniture in question.” [D.E. 38]. Because
Plaintiff was certainly put on notice that Carnival is
seeking summary judgment on her entire claim of negligence, Carnival suggests that Plaintiff ’s argument is
simply wrong and misstates the law in support thereof.
We agree with Carnival that Plaintiff ’s argument
lacks merit. In its introduction, Carnival acknowledges
both of Plaintiff ’s theories of negligence – that Carnival (1) failed to maintain the chair in question, and (2)
failed to warn Plaintiff of the dangerous condition.
[D.E. 38]. As for Plaintiff ’s contention that Carnival
did not refute the application of res ipsa, this argument
lacks merit because there is no authority that requires
Carnival when seeking summary judgment to anticipate Plaintiff ’s defenses to Carnival’s motion. Furthermore, the procedural posture of this case is materially
distinguishable from the facts presented in Frasca because (1) the Court is not sua sponte adjudicating
Plaintiff ’s claims, (2) Defendant acknowledged both of
Plaintiff ’s theories of negligence in its motion, (3) Defendant [8] stated its intention to dismiss all of Plaintiff ’s claims, and (4) Plaintiff was put on notice and
given time to respond, as evidenced by Plaintiff ’s

App. 72
lengthy response in opposition to Defendant’s motion.
As such, we ﬁnd that Carnival complied with the requirements set forth in Rule 56 and that Plaintiff ’s argument is unpersuasive.
2.

Carnival’s Duty of Care under
Federal Maritime Law

Turning to the merits of the matter raised by Carnival’s motion, we begin by identifying the duty of care
that applies to Carnival in this maritime action. As a
sea carrier, Carnival does not serve as strict liability
insurer to its passengers, meaning Carnival can only
be liable for negligence. See Kornberg v. Carnival
Cruise Lines, Inc., 741 F.2d 1332, 1334 (11th Cir. 1984);
Keefe v. Bahama Cruise Line, Inc., 867 F.2d 1318, 1322
(11th Cir. 1989). “Generally, to prevail in a negligence
action the plaintiff must show that: (1) the defendant
owed plaintiff a duty; (2) the defendant breached that
duty; (3) the defendant’s breach was the proximate
cause of plaintiff ’s injuries; and (4) the plaintiff suffered damages.” Weiner v. Carnival Cruise Lines, 2012
WL 5199604, at *2 (S.D. Fla. Oct. 22, 2012) (citing
Isbell v. Carnival Corp., 462 F. Supp. 2d 1232, 1236
(S.D. Fla. 2006)). Because the accident in this case occurred aboard a cruise ship, the aforementioned elements must be evaluated in connection with federal
maritime law. See Smolnokar v. Royal Caribbean
Cruises Ltd., 787 F. Supp. 2d 1308, 1315 (S.D. Fla.
2011) (“Federal maritime law applies to actions arising
from alleged torts ‘committed aboard a ship sailing
in navigable waters.’ ”). Each element is ordinarily

App. 73
essential to a negligence claim and, at this stage of the
proceedings, it is established [9] that a “[p]laintiff
cannot rest on the allegations of her complaint in
making a sufﬁcient showing on each element for the
purposes of defeating summary judgment.” Isbell,
462 F. Supp. 2d at 1236–37 (citing Tipton v. Bergrohr
GMBHSiegen, 965 F.2d 994, 999 (11th Cir. 1992));
Taiariol v. MSC Crociere, S.A., 2016 WL 1428942, at *3
(S.D. Fla. Apr. 12, 2016), aff ’d, 677 F. App’x 599 (11th
Cir. 2017) (“The failure to show sufﬁcient evidence of
each element is fatal to a plaintiff ’s negligence cause
of action.”).
It is also settled law “that a shipowner owes passengers the duty of exercising reasonable care under
the circumstances.” Isbell, 462 F. Supp. 2d at 1237 (citations omitted). And in meeting that standard of care,
it “requires, as a prerequisite to imposing liability, that
the carrier have actual or constructive notice of the
risk-creating condition.” See Keefe, 867 F.2d at 1322.
“This duty includes a duty to warn passengers of dangers the cruise line knows or reasonably should have
known.” Smolnikar v. Royal Caribbean Cruises Ltd.,
787 F. Supp. 2d 1308, 1322 (S.D. Fla. 2011) (citing Carlisle v. Ulysses Line Ltd., S.A., 475 So. 2d 248, 251 (Fla.
3d DCA 1985) (cruise line owners have a duty to warn
that “encompasses only dangers of which the carrier
knows, or reasonably should have known”); Goldbach
v. NCL (Bahamas) Ltd., 2006 WL 3780705, at *2 (S.D.
Fla. Dec. 20, 2006) (same)). However, this duty only extends to “those dangers which are not apparent and obvious to the passenger.” Luby v. Carnival Cruise Lines,

App. 74
Inc., 633 F. Supp. 40, 41 (S.D. Fla. 1986) (citing N.V.
Stoomvaart Maatschappij Nederland v. Throner, 345
F.2d 472 (5th Cir. 1965)); see also Cohen v. Carnival
Corp., 945 F. Supp. 2d 1351, [10] 1357 (S.D. Fla. 2013)
(“[T]here is no duty to warn of dangers that [are] of an
obvious and apparent nature.”) (internal quotation
marks omitted).
3.

Whether Carnival had Actual
or Constructive Notice

Based on this duty of care, we turn to the traditional inquiry whether Carnival had actual or constructive notice of the collapsing chair. See Keefe, 867
F.2d at 1322 (requiring “as a prerequisite to imposing
liability, that the carrier have actual or constructive
notice of the risk-creating condition.”). Plaintiff argues
that there is sufﬁcient evidence in the record for trial
because Carnival had legally effective notice for three
reasons: (1) a substantially similar incident occurred
within the last three years, (2) the ship’s management
meetings establish Carnival’s awareness of chairs in
need of repair, and (3) the observable condition of the
cabin chair’s pegs show that the glue that held the legs
together had worn away.
First, Plaintiff notes that on October 18, 2014, less
than a year prior to Plaintiff ’s incident, another Carnival passenger, Tina Dalfonso, experienced a substantially similar incident involving the collapse of a chair
when she tried to sit on it. Second, Plaintiff contends
Carnival’s meeting notes demonstrate that Carnival’s

App. 75
chairs experience wear and tear, and that approximately 20 to 40 were in need of repair at the time of
the accident. And third, Plaintiff believes that her husband’s observations demonstrate constructive notice to
Carnival because he found worn away glue on the pegs
of the cabin chair that suggest that the pegs became
unglued some time ago and became loose. Coupled
with Plaintiff ’s testimony that she did not sit in the
chair prior to the incident and that the chair [11] remained untouched for at least 24 hours, Plaintiff argues that there is more than enough evidence to ﬁnd
that Carnival was on constructive notice of the dangerous chair in Plaintiff ’s cabin.
Carnival’s response is that there is absolutely no
record evidence establishing actual or constructive notice. In the three years preceding Plaintiff ’s incident,
Carnival argues that there were no prior similar incidents involving the collapse of the type of cabin chair
at issue in this case. The only prior incident that Plaintiff relies upon included a metal balcony chair in a different cabin, whereas this case involves a wood upholstered
chair. Thus, Plaintiff believes that the isolated prior incident involved entirely different circumstances and is not
nearly enough to impute constructive notice of any
dangerous condition.
As for the meeting minutes that Plaintiff relies
upon, Carnival believes those are also insufﬁcient to
show actual or constructive notice because the repairs
referenced in those documents only address cosmetic
issues such as varnishing, sanding, and repainting –
not any structural issues, such as the broken chair in

App. 76
Plaintiff ’s cabin. And ﬁnally, Plaintiff argues that the
observations and speculative conclusions of Plaintiff ’s
husband (who is not obviously an expert) is not enough
to establish notice because Plaintiff ’s husband admits
that “[i]t was obvious from the appearance of the pegs
– visible only after it fell apart – that the pegs had been
unglued and loose for a long time.” [D.E. 44-3] (emphasis added). Plaintiff ’s husband also stated that “[t]he
chair did not have any obvious or observable outward
defects.” Id. Carnival argues that maritime law does
not impose any [12] heightened duty to completely disassemble a chair to conduct an inspection and that the
testimony of Plaintiff ’s husband supports Carnival’s
contention that it had no obvious or observable defect.
Therefore, Carnival believes it could not have been on
notice of any dangerous condition especially when
Plaintiff suggests that a cruise line should physically
take apart chairs to determine if they are structurally
sound.
Because the law purportedly imposes no such duty
on Carnival, the mere fact that a chair collapsed coupled with the speculative assertion of Plaintiff ’s husband that the chair had been loose for a “long time” is
allegedly insufﬁcient to ﬁnd that Carnival had constructive notice. Accordingly, Carnival argues that the
evidence in the record demonstrates an absence of any
prior notice of a deﬁciency with respect to the cabin
chair or similar cabin chairs aboard the Splendor and
therefore summary judgment must be granted.
Even assuming that a defective condition existed
in this case, we agree with Carnival that the record

App. 77
contains no evidence to show that Carnival actually
knew of a defect in the cabin chair. This means that
Plaintiff can only rely upon the allegation that Carnival had constructive notice. And “[c]onstructive notice
‘requires that a defective condition exist for a sufﬁcient
interval of time to invite corrective measures.’ ” Mirza
v. Holland America Line Inc., 2012 WL 5449682, at *3
(W.D. Wash. Nov. 6, 2012) (quoting Monteleone v. Bahama Cruise Line, Inc., 838 F.2d 63, 65 (2d Cir. 1988)).
Here, Plaintiff has presented no tangible evidence
that Carnival had constructive notice or that it should
have known that the cabin chair posed any [13] riskcreating condition for any passenger. “There is no evidence in the record of any accident reports, passenger
comment reviews or forms, or reports from safety inspections alerting Carnival of any potential safety
concern. . . .” Cohen, 945 F. Supp. 2d at 1355–56 (citing
Smolnikar v. Royal Caribbean Cruises, Ltd., 787
F. Supp. 2d 1308, 1323–24 (S.D. Fla. 2011) (finding that
the cruise line had no actual or constructive notice of
any risk-creating condition from a zipline tour operator because “Royal Caribbean had positive information
about [the tour operator], and there is no evidence that
Royal Caribbean received any form of notice regarding
the existence of an alleged danger, as there were no accident reports from [the tour operator], or passenger
comment forms or reviews, alerting Royal Caribbean
as to a potential safety concern at traverse # 6 of the
tour”); Samuels v. Holland American Line–USA Inc.,
656 F.3d 948, 953–54 (9th Cir. 2011) (ﬁnding that the
cruise line did not have actual or constructive notice of

App. 78
any danger to passengers to wading on a beach because there was no evidence in the record that any
other passenger had ever been injured on that beach
and the cruise line was not “aware of any similar accident, or any accident at all, that had previously occurred while a Holland American passenger was
swimming on the Pacific Ocean side of Lover’s Beach”)).
Again, Plaintiff points instead to the same three
reasons why Carnival had constructive notice. But,
again, none are persuasive. Plaintiff ﬁrst focuses on an
incident that occurred nearly three years ago, but that
incident involved a different cabin and a completely
different type of chair. In fact, the chair at issue in the
incident three years ago was a metal balcony chair that
was exposed to the [14] elements whereas the chair in
this case was upholstered with a wooden frame inside
a cabin. As such, Plaintiff cannot meet the Eleventh
Circuit’s substantial similarity doctrine that requires
a party to provide evidence of “conditions substantially
similar to the occurrence in question” that “caused the
prior accident.” Jones v. Otis Elevator Co., 861 F.2d 655,
661–62 (11th Cir. 1988) (citation omitted); see also
Sorrels v. NCL (Bahamas) Ltd., 796 F.3d 1275, 1287–
88 (11th Cir. 2015) (afﬁrming district court’s ruling
that “evidence of 22 other slip and fall incidents”
aboard defendant’s vessel did not meet the “substantial similarity doctrine” as none of the falls occurred
where plaintiff fell, other injured passengers wore
varying styles of footwear, and additional factors were
involved); Frasca, 2014 WL 1385806, at *8 (determining that plaintiff was “unable to show that another

App. 79
passenger slipped and fell where [plaintiff ] fell, under
similar conditions”).
Furthermore, even if we ignore the differences of
the metal balcony chair and view the issue through a
general foreseeability lens, there is still not enough evidence that a single incident involving a broken chair
from three years ago “occurred with enough frequency
to impute constructive notice” to Carnival of a dangerous condition. See Taiariol, 2016 WL 1428942, at *6
(“Quite simply, there is no evidence that accidents
like the subject incident frequently occurred in the
Pantheon Theater or involved metal stair ‘nosings,’ to
render steps—like the one at issue here—unreasonably dangerous to traverse.”); Weiner v. Carnival Cruise
Lines, 2012 WL 5199604, at *5 (S.D. Fla. Oct. 22, 2012)
(ﬁnding no evidence “that spills and accidents of the
sort” plaintiff experienced occurred enough to “impute
[15] constructive notice”); see also Mercer v. Carnival
Corporation, 2009 WL 302274, at *2 (S.D. Fla. Feb. 9,
2009) (rejecting argument that cruise line “had actual
or constructive notice of the dangerous propensities of
high gloss hardwood ﬂoors being in close proximity to
the bathroom,” where plaintiff fell after exiting the
shower, because plaintiff failed to produce “any evidence to support his contention that [the cruise line]
had notice of the allegedly dangerous condition”). Accordingly, Plaintiff ’s ﬁrst argument fails.
The same holds true for Plaintiff ’s second argument that Carnival’s meeting minutes constitute constructive notice. The housekeeping manager, Serhiy
Bukaruv. testiﬁed that the meeting minutes only

App. 80
reﬂect a list of chairs that require sanding, repainting,
or varnishing. [D.E. 38-1 at 24, 27]. In other words, the
chairs that are reﬂected on the meeting minutes only
require cosmetic changes, not any structural issues.
See id. at 46. And to the extent that chairs are identiﬁed to be structurally deﬁcient, those are immediately
replaced by staff members. Therefore, there is simply
no tangible evidence to get to a jury based on Carnival’s meeting minutes that do not reﬂect any chairs
that require structural deﬁciencies, let alone the speciﬁc chair at issue in this case. Constructive notice
could not be found on this basis as a matter of law.
Plaintiff ’s third argument to sustain her constructive notice theory is equally unpersuasive. Plaintiff
contends that her husband’s observations demonstrate
constructive notice to Carnival because he found wornaway glue on the pegs of the cabin chair and that he
determined the pegs became unglued some time ago
and [16] became loose. Yet, Plaintiff ’s husband undermines her argument because his afﬁdavit states “[i]t
was obvious from the appearance of the pegs – visible
only after it fell apart – that the pegs had been unglued
and loose for a long time.” [D.E. 44-3] (emphasis
added). And Plaintiff ’s husband also claims that “[t]he
chair did not have any obvious or observable outward
defects.” Id.
In other words, the husband’s sworn observations
actually support Carnival’s position that no reasonable
inspection could have discovered the dangerous condition without ﬁrst deconstructing the cabin chair. And
federal maritime law does not impose a daily duty to

App. 81
deconstruct furniture to discharge a duty of reasonable
care to passengers. See, e.g., Bush v. XYZ Ins. Co., 880
So. 2d 953, 956 (La. Ct. App. 2004) (“We ﬁnd nothing in
the statutes or jurisprudence that would suggest that
such a great burden is on an owner of a thing to hire
an expert to inspect it thoroughly before it is placed
into use, and we decline to place such a burden on
Merlin Computers here.”); Smith v. Bernfeld, 226 Md.
400, 408 (1961) (“[N]o business man is required to provide an appliance or place of business free from the
hazard of all mishaps. This is a task impossible to fulﬁll.”). Plaintiff ’s husband is also not an expert, which
further undermines the argument that the pegs became unglued some time ago and that Carnival had
constructive notice. Accordingly, Plaintiff has failed to
demonstrate in any way that Carnival had constructive notice of the cabin chair.
In sum, without prior complaints from Plaintiff or
other passengers, and with regular inspections of all
chairs in the cabins, the record presented simply does
not [17] establish that Carnival had any actual or constructive notice of the defective cabin chair. As the Second Circuit stated nearly thirty years ago, we “simply
cannot conclude that [Carnival’s] failure to discover
the [defective] condition . . . assuming as we do that it
existed prior to the [incident] and in fact caused the
[incident], constituted a lack of due care for which it
should be held liable.” Monteleone, 838 F.2d at 66.
Accordingly, under traditional negligence analysis
that applies in this maritime action, summary judgment on Plaintiff ’s claim would be warranted as a

App. 82
matter of law. Because there is no evidence in this record that Carnival possessed actual or constructive
knowledge of the alleged risk-creating condition, summary judgment should be granted under Eleventh Circuit precedent that requires plaintiffs to satisfy this
element when pursuing a negligence cause of action.
See, e.g., Everett v. Carnival Cruise Lines, 912 F.2d
1355, 1358–59 (11th Cir. 1990) (“[T]he ‘benchmark
against which a ship owner’s behavior must be measured is ordinary reasonable care under the circumstances, a standard which requires, as a prerequisite
to imposing liability, that the carrier have had actual
or constructive notice of the risk-creating condition.’ ”);
Keefe, 867 F.2d at 1322; Taiariol, 677 F. App’x at 602
(“Because Taiariol failed to produce evidence that the
defendant had notice, either actual or constructive, of
the nosing’s slippery condition, and because notice is a
prerequisite to imposing liability, the district court did
not err in granting summary judgment to the defendant.”) (internal citation omitted); Lipkin v. Norwegian
Cruise Line Ltd., 93 F. Supp. 3d 1311, 1324 (S.D. Fla.
2015) (“Because [18] Plaintiff has failed to cite any
evidence in the record showing that Norwegian had actual or constructive notice of the risk-creating condition alleged in the complaint, and because evidence of
notice is a prerequisite to liability under maritime law,
summary judgment in favor of Norwegian is appropriate in this matter.”) (citing Keefe, 867 F.2d at 1322);
Thomas v. NCL (Bahamas) Ltd., 2014 WL 3919914, at
*4 (S.D. Fla. Aug. 11, 2014) (granting summary judgment where “[t]he unrefuted evidence in the record instead indicates a lack of actual or constructive notice”).

App. 83
Indeed it is well settled that, at the summary judgment stage, “mere implication of actual or constructive
notice is insufﬁcient to survive summary judgment.”
See Lipkin, 93 F. Supp. 3d at 1323 (citation omitted);
see also Thomas, 2014 WL 3919914, at *4; Cohen, 945
F. Supp. 2d at 1357. So for instance, in Adams v. Carnival Corp., a passenger brought a negligence claim
against a cruise line alleging that a defective pool deck
collapsed and injured the plaintiff. See 2009 WL
4907547, at *1. The plaintiff in Adams presented no
record evidence establishing that the defendant had
actual or constructive notice as to any hazardous condition with respect to the chair in question. There was
also no evidence that the defendant was aware of any
other passengers experiencing problems with chairs on
the pool deck. Hence, the court held that “[w]ithout
speciﬁc facts demonstrating, at least, that the purported defect was detectable with sufﬁcient time to allow for corrective action,” the defendant was entitled
to summary judgment. Id. at *5.
The same analysis applies here based on this record. Carnival’s stateroom stewards service the individual cabins on a daily basis and that they are tasked
[19] with the speciﬁc responsibility of inspecting the
condition of the cabin furniture and identifying any
maintenance issues. They conduct a visual inspection,
and also touch the furniture to identify any damage to
make certain that it is structurally sound. If any furniture needs to be repair or replaced, Carnival contends that it is immediately removed from the cabin.
In the three years prior to Plaintiff ’s accident, there

App. 84
were purportedly no substantially similar incidents
and only one involving a chair in a passenger cabin.3
Therefore, even assuming all facts in the light
most favorable to Plaintiff and drawing all factual inferences in Plaintiff ’s favor, Plaintiff has still failed to
demonstrate the existence of a genuine issue of material fact as to whether Carnival possessed actual or
constructive notice of the alleged risk-creating condition.
4.

Whether Actual or Constructive
Notice is Always Required

Plaintiff ’s alternative position on the question of
notice is that notice is not required in two circumstances: (1) when the doctrine of res ipsa loquitur applies, and (2) when plaintiffs allege a negligent
maintenance cause of action. Plaintiff concludes that
res ipsa principles should be applied under the circumstances of this case, which would then require the negligence claim to proceed for trial irrespective of actual
or constructive notice on Carnival’s part. And Plaintiff
otherwise argues that her negligent maintenance
claim precludes Carnival from relying on the notice

3

Carnival points out that the other incident within the previous three years involved a broken metal balcony chair. Yet,
Plaintiff’s incident involved a different type of chair in a different
cabin, and that the chair had different mechanical deﬁciencies.
As such, Carnival believes that Plaintiff’s accident is an isolated
incident involving different circumstances that is not enough to
impute constructive notice of any dangerous condition.

App. 85
[20] element in its motion for summary judgment. We
will tackle the more complicated res ipa issues ﬁrst.
(a) Effect of Res Ipsa Loquitur
Doctrine on Notice Requirement
Res ipsa loquitur is an evidentiary rule that “provides an injured plaintiff with a common-sense inference of negligence where direct proof of negligence is
wanting.” Goodyear Tire & Rubber Co. v. Hughes Supply, Inc., 358 So. 2d 1339, 1341 (Fla. 1978); Marrero v.
Goldsmith, 486 So. 2d 530 (Fla. 1986). In doing so, “it
raises an inference of negligence which merely shifts
the burden of going forward with the evidence to the
defendant.” Louisiana & A. R. Co. v. Fireman’’ Fund
Ins. Co., 380 F.2d 541, 543–44 (5th Cir. 1967). This doctrine means, in Latin, the “thing that speaks for itself ”
and it allows a plaintiff to prove negligence through
circumstantial evidence. See Rockey v. Royal Caribbean Cruises, Ltd., 2001 WL 420993, at *5 (S.D. Fla.
Feb.20, 2001). The doctrine, like any other rule of evidence, is only brought into play where the situation
makes it applicable. This means that “[i]t does not have
to be pleaded in the complaint or ‘noticed’ by speciﬁc
designation to the adverse party at pre-trial or at trial,
since it is neither a cause of action nor a ground for
recovery, nor an ‘issue’.” Knight v. Otis Elevator Co., 596
F.2d 84, 90 (3d Cir. 1979).
Plaintiff contends that the rule, if applicable, forecloses the necessity of showing prior notice to give rise
to liability. Plaintiff believes that the collapse of the

App. 86
chair in question would not in the ordinary course of
events have occurred without negligence on the part of
the one in control of the chair – i.e. Carnival. And [21]
because the doctrine may be applied to these facts,
Plaintiff is absolved of the burden of showing prior notice. See Mabrey v. Carnival Cruise Lines, Inc., 438 So.
2d 937 (Fla. 3d DCA 1983) (“[A]ctual or constructive
knowledge is irrelevant in cases not involving transitory, foreign substances (i.e., the typical banana peel
case), if ample evidence of negligent maintenance can
be shown.” (citing 194th Street Hotel Corp. v. Hopf, 383
So. 2d 739 (Fla. 3d DCA 1980)); see also Millan v. Celebration Cruise Operator, Inc., 212 F. Supp. 3d 1301,
1306 (S.D. Fla. 2015) (“The Court concludes that a
plaintiff is not required to show the defendant’s actual
or constructive notice of the defective condition in order to raise a res ipsa loquitur inference of negligence
under maritime law. The Court therefore holds that
Defendant Celebration’s lack of actual or constructive
knowledge of the risk-creating condition does not as a
matter of law preclude Plaintiff from arguing the doctrine’s application.”).
Carnival responds, however, that the doctrine of
res ipsa loquitur cannot apply here and, even if it did,
Plaintiff is always required to show that Carnival had
actual or constructive notice. Apart from that, Carnival
also contends that federal law does not recognize the
application of the doctrine for maritime negligence actions. As for the cases Plaintiff relies upon, Carnival
suggests that they are noticeably distinguishable.

App. 87
For example, in O’Connor v. Chandris Lines, which
Plaintiff heavily relied upon, the issue was whether res
ipsa loquitur was applicable to a collapsing bunk bed.
566 F. Supp. 1275 (D. Mass. 1983). Yet, the court in that
case ruled after a [22] bench trial, not at summary
judgment, that “[t]he evidence does not disclose any
other probable explanation for the collapse of the bunk
except the negligence of the defendant in permitting
the bunk to be or remain in a defective condition.” Id.
at 1280. Carnival also points out that there was no evidence in the record about the length of time the bunk
bed had been in service or the last time prior to the
accident that it had been surveyed, or inspected (in
contrast with the facts in this record).
Our review of this issue shows that, as an initial
matter, courts have certainly split on the question of
whether res ipsa loquitur applies in a negligence maritime action. However, we agree with Judge Williams’s
holding in Millan and the weight of authority in the
Eleventh Circuit, that “a plaintiff is not required to
show the defendant’s actual or constructive notice of
the defective condition in order to raise a res ipsa loquitur inference of negligence under maritime law.”
Millan, 212 F. Supp. 3d at 1306; see also Great Am. Ins.
Co. v. Pride, 847 F. Supp. 2d 191, 205 (D. Me. 2012)
(“The doctrine of res ipsa loquitur, which is fully applicable in admiralty, allows negligence to be proved by
circumstantial evidence.”).
As such, the “lack of actual or constructive
knowledge of a risk-creating condition does not as a
matter of law preclude Plaintiff from arguing the

App. 88
doctrine’s application.” Id.; see also United States v.
Baycon Indus., Inc., 804 F.2d 630, 632-35 (11th Cir.
1986) (no requirement of actual or constructive notice
for res ipsa in maritime negligence action); Terry, 3
F. Supp. 3d at 1372–74 (same); O’Connor, 566 F. Supp.
at 1279–80 (same); Burns v. Otis Elevator, 550 So. 2d
21, 22 (Fla. 3rd DCA 1989) (actual or constructive notice of the defect is “immaterial” if the conditions for
[23] the res ipsa doctrine are established). Because res
ipsa loquitur may be raised in a federal maritime action and may obviate the need for Plaintiff to demonstrate actual or constructive notice in a federal
maritime action, we ﬁnd that Carnival’s argument on
this point lacks merit.
There is certainly some support for Carnival’s theory that the notice element remains an essential component of a negligence claim, res ipsa or not. See, e.g.,
Tillson v. Odyssey Cruises, 2011 WL 309660, at *7 (D.
Mass. Jan. 27, 2011) (“Premier Yachts contends that a
predicate for a res ipsa loquitur ﬁnding is that the Defendant had notice of the defective condition of the
chair. This argument is supported by several cases in
the maritime context.”) (citing Giacomelli v. Massachusetts Greyhound, 1991 WL 229957 (Mass. App. Div. Nov.
4, 1991) (refusing to apply doctrine of res ipsa loquitur
where the plaintiff did not detect any weakness in the
chair, thereby making the defect not detectable from
normal inspection and making it impossible for the defendant to have had notice of it)); see also Adams, 2009
WL 4907547, at *5 (“[T]he mere fact that an accident
occurred or that [the plaintiff ] asserts a res ipsa

App. 89
loquitur action does not obviate the need to show that
[the defendant] had notice.”); Hood v. Regency Maritime Corp., 2000 WL 1761000, at *4 (S.D.N.Y. Nov.30,
2000) (“Without notice of any sort . . . the defendants
cannot be held liable for the injuries sustained by the
plaintiff.”).
Nevertheless, our review of the relevant caselaw
shows that the majority view runs counter to Carnival’s blanket argument that would obviate the need for
the detailed analysis of the res ipsa doctrine that
Plaintiff demands. The doctrine [24] could, if properly
applied, govern a maritime action in federal court. After all, maritime law traditionally relies upon “general
principles of negligence law.” Chaparro v. Carnival
Corp., 693 F.3d 1333, 1336 (11th Cir. 2012). That is why
the primary maritime standard of care is “ordinary
reasonable care under the circumstances.” Keefe, 867
F.2d at 1322. And that standard of care has been
developed primarily by case law development in the
federal courts. Id. at 1320-21 (citing Kermarec v. Compagnie Generale Transatlantique, 358 U.S. 625, 628,
(1959)); see also Edmonds v. Compagnie Generale
Transatlantique, 443 U.S. 256, 259 (1979) (“Admiralty
law is judge-made law to a great extent, . . . ”); Romero
v. Int’l Terminal Operating Co., 358 U.S. 354, 360-61
(1959) (constitutional grant “empowered the federal
courts . . . to continue the development of [maritime]
law”).

App. 90
The most commonly cited factors in developing
this body of federal law have been reason,4 common
sense,5 fairness,6 simplicity, practicality7 and uniformity.8 [25] When it comes to the correct application
of the doctrine of res ipsa loquitur all these factors supporting recognition of the doctrine in maritime cases.
The doctrine has been adopted in almost all the states
of the union, so much so that it encompasses its own
section of the Restatement (Second) of Torts. It is based
on the well-established, common sense notion that if
no plausible explanation, other than a defendant’s
See, e.g., Kermarec, 358 U.S. at 631-32; Keefe, 867 F.2d at
1322; see also Schoenbaum, Admiralty & Maritime Law § 5.2 (5th
ed. 11/16 update) (“In admiralty the duty of care may be derived
from three basic sources: (1) duly enacted laws, regulations, and
rules; (2) custom; and (3) the dictates of reasonableness and prudence.”) (citations omitted).
5
See, e.g., Exxon Shipping Co. v. Baker, 554 U.S. 471, 503
(2008) (“The common sense of justice would surely bar penalties
that reasonable people would think excessive for the harm caused
in the circumstances.”) (adopting punitive damage remedy as a
matter of federal maritime law based on 1-to-1 ratio to compensatory damages).
6
See, e.g., id. at 502 (system of common law (governing maritime actions) “rests on a sense of fairness in dealing with one another.”).
7
See, e.g., Kermarec, 358 U.S. at 631 (“For the admiralty law
at this late date to import such conceptual distinctions would be
foreign to its traditions of simplicity and practicality.”).
8
See, e.g., Moragne v. States Marine Lines, Inc., 398 U.S.
375, 401 (1970) (“Our recognition of a right to recover for wrongful
death under general maritime law will assure uniform vindication of federal policies, removing the tensions and discrepancies
that have resulted from the necessity to accommodate state remedial statutes to exclusively maritime substantive concepts.”).
4

App. 91
negligence, could account for a plaintiff ’s injuries then
the burden of proof should be borne by the defendant.
See, e.g., Restatement (Second) of Torts § 328D (1965).
There is simply no persuasive reason why federal maritime law, premised as it is on recognition of traditional
principles of reasonableness and fairness, should not
also recognize its potential application to a proper set
of facts just as so many other common law jurisdictions
have.
Accordingly, we ﬁnd that Carnival’s arguments for
wholesale rejection of the doctrine in maritime cases
lack merit.
(b)

Effect of Negligence Maintenance
Claim on Notice Requirement

Plaintiff ’s next argument is that, even if res ipsa
loquitur does not forego the notice requirement, the
theory of negligent maintenance provides another
possible exception. See Mabrey, 438 So. 2d at 937
(“[A]ctual or constructive knowledge is irrelevant in
cases not involving transitory, foreign substances (i.e.,
the typical banana peel case), if ample evidence of negligent maintenance can be shown.” (citing 194th Street
Hotel Corp., 383 So. 2d at 739).
[26] In response, Carnival contends that Plaintiff
cannot defeat the notice requirement by alleging a
negligent maintenance theory of liability and that the
cases Plaintiff relies upon are completely inapposite.
Carnival argues that the notice requirement is a
bedrock tenet of maritime negligence actions and is,

App. 92
therefore, different from the state law cases that Plaintiff seemingly relies upon. See Everett v. Carnival
Cruise Lines, 912 F.2d 1355, 1358 (11th Cir. 1990)
(“The district court’s view that Florida law controlled
this issue, however, was incorrect. Because this is a
maritime tort, federal admiralty law should control.”).
Speciﬁcally, Carnival suggests that Plaintiff ’s reliance
on Mabrey is misplaced because in that case the court
determined that the defendant had notice of a dangerous condition because it posted a “Slippery When Wet”
sign in the area. As such, Mabrey is supposedly inapposite because it involved a defect that was readily observable.
We agree with Carnival that Plaintiff has failed to
present any persuasive authority supporting the proposition that, by alleging a negligent maintenance theory, a per se exception arises to the notice requirement
under federal maritime law. Unlike the doctrine of res
ipsa loquitur, Plaintiff fails to cite a single case where
a court has agreed with this position in a federal maritime cause of action. And all of Plaintiff ’s authorities
involve circumstances where a defendant was obviously put on notice.
Plaintiff also does not adequately explain why a
negligent maintenance theory, as a practical matter,
would alter the general rule under binding Eleventh
[27] Circuit precedent that requires a plaintiff to
demonstrate actual or constructive notice when pursuing a federal maritime negligence action. Therefore, we
ﬁnd that Plaintiff ’s argument, as it relates to negligent
maintenance, lacks the requisite support to obviate the

App. 93
notice requirement under federal maritime law. In
sum, we hold that res ipsa may obviate the notice requirement in a federal maritime negligence action, but
that merely alleging a negligent maintenance cause of
action does not.
5.

Whether Res Ipsa Loquitur May
be Invoked in This Case

To determine whether res ipsa loquitur applies to
the facts of this case, the Supreme Court in Johnson v.
United States, 333 U.S. 46, 68 (1948) formulated a
three part test: (1) the injured party was without fault,
(2) the instrumentality causing the injury was under
the exclusive control of the defendant, and (3) the mishap is of a type that ordinarily does not occur in the
absence of negligence. See Johnson, 333 U.S. at 68. If a
plaintiff can meet all three elements, the jury may receive a res ipsa jury instruction because “[r]es ipsa loquitur may supply an inference from which the jury
may conclude the defendant was negligent,” and
“[w]hile such an inference of negligence can get the
plaintiff to the jury, application of res ipsa loquitur
simply permits, but ordinarily does not compel, the inference of negligence on the part of the defendant.”
Fruge v. Penrod Drilling Co., 918 F.2d 1163, 1167 (5th
Cir. 1990); see also Grajales-Romero v. Am. Airlines,
Inc., 194 F.3d 288, 296 n.8 (1st Cir. 1999) (“[T]he res
ipsa loquitur instruction should be given if the three
conditions of res ipsa loquitur are satisﬁed”); Millan,
212 F. Supp. 3d at [28] 1306 (ﬁnding that plaintiff met
the three res ipsa elements and reserving “any decision

App. 94
on whether a res ispa loquitur instruction will be appropriate until later in this case.”); Lobegeiger v. Celebrity Cruises, Inc., 2011 WL 3703329 (S.D. Fla. Aug. 23,
2011) (“The jury may receive a res ipsa loquitur instruction if the plaintiff establishes” the three required
elements). And when the question is put before a jury,
“the burden of proof remains on the plaintiff to convince the jury to accept the inference of negligence.”
Fruge, 918 F.2d at 1167. Whether a case is ﬁt for the
application of res ipa is a question of law whereas it is
the jury’s function to weigh any conﬂicting evidence
and ultimately choose whether a plaintiff ’s inference
is to be preferred or not.
“The doctrine of res ipsa loquitur (Latin for ‘the
thing speaks for itself ’) had its origins in the 19th–century English case, Byrne v. Boadle, 159 Eng.Rep. 299
(1863), in which a barrel of ﬂour rolled out of a warehouse window and fell upon a pedestrian beneath.”
Taylor v. Riddell, 320 Ark. 394, 896 S.W.2d 891, 893 n.1
(1995). “[D]eveloped to assist in the proof of negligence
where the cause is connected with an instrumentality
in the exclusive control of a defendant,” the doctrine
“allows the jury to infer negligence from the plaintiff ’s
evidence of circumstances surrounding the occurrence.” Schubert v. Target Stores, Inc., 369 S.W.3d 717,
720 (2010). The doctrine “simply recognizes what we
know from our everyday experience: that some accidents by their very nature would ordinarily not happen
without negligence.” Dermatossian v. N. Y. C. Transit
Auth., 67 N.Y.2d 219, 226 (1986) (citations omitted).
Generally speaking, res ipsa is “an often confused [29]

App. 95
and often misused doctrine,” because courts have
sometimes inferred negligence “simply from the fact
that an event happened.” St. Paul Fire & Marine Ins.
Co. v. City of New York, 907 F.2d 299, 302 (2d Cir.
1990).
Yet, the doctrine should only be applied in “rare
instances,” and in situations where “common sense
alone dictates that someone was negligent.” Whitted v.
Gen. Motors Corp., 58 F.3d 1200, 1207 (7th Cir. 1995);
see also Insurance Co. of the W. v. Island Dream Homes,
Inc., 679 F.3d 1295, 1299 (11th Cir. 2012) (“Outside the
relatively rare circumstances implicating the principle
of res ipsa [loquitur], it is well-settled that the mere
occurrence of a mishap does not prove that the mishap
resulted from tortious conduct.”) (quoting Clark v. Polk
County, 753 So. 2d 138, 143 (Fla. 2d DCA 2000)); Family Thrift, Inc. v. Birthrong, 336 Ga. App. 601, 605, 785
S.E.2d 547 (2016) (“[T]he doctrine of res ipsa loquitur
should always be applied with caution and only in extreme cases.”) (emphasis added) (quotation marks and
citations omitted). The reason for the rare application
of the res ipsa doctrine is because it often makes “the
plaintiff ’s light burden nonexistent, and deprive[s] the
jury of its traditional role of assigning fault in negligence actions and assigning weight to circumstantial
evidence.” Estate of Larkins by Larkins v. Farrell Lines,
Inc., 806 F.2d 510 (4th Cir. 1986); Otis Elevator Co. v.
Chambliss, 511 So. 2d 412, 413 (Fla. 1st DCA 1987)
(“The doctrine of res ipsa loquitur is a doctrine of ‘extremely limited applicability.’ ”) (quoting Goodyear Tire
& Rubber Co. v. Hughes Supply, Inc., 358 So. 2d 1339

App. 96
(Fla. 1978)). And more importantly, courts have recognized that res ipsa “is commonly raised by plaintiffs to
escape a nonsuit, or a [30] dismissal of their cause
since [if the doctrine applies] there is sufﬁcient evidence to go to the jury.” Tillson, 2011 WL 309660, at *6.
The parties in this case do not dispute the ﬁrst element
of the Johnson test. As such, our inquiry begins with
the second element on whether Carnival or Plaintiff
was in exclusive control of the chair in question.9
(a)

The Element of Legally Exclusive
Control of the Chair

Plaintiff ’s strongest argument why Carnival remained in exclusive control of the chair follows from
Carnival’s concession that it has sole responsibility for
the inspection, maintenance, repairs, and/or cleaning

9

We note that when plaintiffs move for summary judgment
on the application of res ipsa, courts have generally been reluctant to rule in their favor merely upon a demonstration that
the doctrine applies. See, e.g., Harms v. Lab. Corp. of Am., 155
F. Supp. 2d 891, 907 (N.D. Ill. 2001) (“Courts are very reluctant
to grant summary judgment for a plaintiff under the doctrine of
res ipsa loquitur.”); Morejon v. Rais Constr. Co., 7 N.Y.3d 203
(N.Y. 2006) (holding that summary judgment for a plaintiff on a
res ipsa loquitur theory should be a rare event, granted “only
when the plaintiff ’s circumstantial proof is so convincing and the
defendant’s response so weak that the inference of defendant’s
negligence is inescapable.”); Rathvon v. Columbia Pac. Airlines,
30 Wash. App. 193, 633 P.2d 122, 130–31 (Wash. Ct. App. 1981)
(“The doctrine of res ipsa loquitur, in and of itself, is thus insufﬁcient to support a summary judgment for a plaintiff unless the
facts are undisputed.”).

App. 97
of the furniture to ensure safe conditions. Plaintiff
adds that neither she nor her family members mishandled the chair prior to its use. On the other hand, Carnival contends that Plaintiff was undoubtedly in
exclusive control because she had access to the chair at
the time of the accident and in the 24 hours preceding
it.
“The element of exclusive control in the res ipsa
analysis does not mean that the defendant’s control of
the instrumentality be ‘literally exclusive.’ ” Welch v.
NCL (Bahamas) Ltd., 2016 WL 4921010, at *2 (S.D.
Fla. Jan. 8, 2016) (citing Colmenares [31] Vivas v. Sun
All. Ins. Co., 807 F.2d 1102, 1105 (1st Cir. 1986)). And
it also does not mean that Carnival must have physical
control because “it is enough that the defendant, and
not a third party was ultimately responsible for the instrumentality.” Colmenares Vivas, 807 F.2d at 1106; see
also Victorias Milling Co. v. Panama Canal Co., 272
F.2d 716, 726 (5th Cir. 1959) (“The use of the term exclusive control in many cases has been superseded by
the phrase right of control, which means that the instrument causing the damage need not be in the physical control of the defendant, but rather may be within
the management and power to control of the defendant.”) (citation omitted).
Instead, it is established that a defendant “charged
with a nondelegable duty of care to maintain an instrumentality in a safe condition effectively has exclusive
control over it for the purposes of applying res ipsa loquitur.” Id. This means that exclusive control can be
found even if a defendant shares responsibility with

App. 98
another, or “if [a] defendant is responsible for the instrumentality even though someone else had physical
control over it.” Id. at 1106 (citing W. Keeton, D. Dobbs,
R. Keeton & D. Owen, Prosser & Keeton on the Law of
Torts § 39, at 250–51 (5th ed. 1984) (exclusive control
requirement met in a variety of circumstances in
which the defendant did not have sole responsibility or
physical control over the injury-causing instrumentality); Otis Elevator Co. v. Yager, 268 F.2d 137, 143 (8th
Cir. 1959) (property owner and not maintenance company had exclusive control over elevator); Restatement
(Second) of Torts § 328D comment g (1965) (exclusive
control [32] requirement may be met even though responsibility was shared or someone else had physical
control)).
The First Circuit’s decision in Colmenares Vivas is
instructive on this point. In that case, a married couple
fell and were injured when an airport escalator handrail stopped moving.10 When the coupled sued the airport operator, the trial court granted defendant a
directed verdict on the ground that the case could not
go to the jury on the theory of res ipsa because the element of exclusive control had not been established. The
Although the facts in Colmenares Vivas are unrelated to
maritime law, the Eleventh Circuit has recognized that federal
maritime law is drawn from both state and federal sources, including “an ‘amalgam of traditional common-law rules, modiﬁcations of those rules, and newly created rules’ which includes a
‘body of maritime tort principles.’ ” Brockington v. Certiﬁed Elec.,
Inc., 903 F.2d 1523, 1530 n.2 (11th Cir. 1990) (quoting and citing
East River S.S. Corp. v. Transamerica Delaval, Inc., 476 U.S. 858,
865 (1986)).
10

App. 99
First Circuit held that because the airport owner had
a duty to maintain safe escalators, it effectively had
exclusive control over them even though it was plaintiff who was riding the escalator at the time of the injury.
Judge Scola’s recent decision in Welch adheres to
the same principle. In Welch, NCL was charged with
the duty to maintain a pool ladder in a safe condition
and the court found that defendant had exclusive control over it for the purpose of applying res ipsa loquitur.
See Welch, 2016 WL 4921010, at *2. Speciﬁcally, Judge
Scola determined that “NCL is charged with the duty
to maintain the pool ladder in safe condition” and that
“it ‘effectively has exclusive control over the [pool ladder] for the purposes of applying res ipsa loquitur.’ ”
Welch, 2016 WL 4921010, at *2 (citing Colmenares Vivas, 807 F.2d at 1106).
[33] Based on the current state of the law as to this
second element of the res ipsa doctrine, we agree with
both decisions and ﬁnd that it was Carnival that had
exclusive control over the chair in question because
both parties agree that it had sole responsibility for the
inspection, maintenance, repairs, and cleaning of the
cabin chair. See also Cardina v. Kash N’ Karry Food
Stores, Inc., 663 So. 2d 642, 643 (Fla. 2d DCA 1995)
(“[t]he plaintiff ’s mere proximity to the instrumentality causing the injury does not negate the exclusivity
of the defendant’s control in the absence of any evidence that the plaintiff ’s conduct-or that of any other
person-precipitated the accident.”); Terry v. Carnival
Corp., 3 F. Supp. 3d 1363, 1373 (S.D. Fla. 2014) (“[T]he

App. 100
prior inspections, compliance and repairs do not show
that Carnival was not in exclusive control at the time
of the cruise.”).
In short, Carnival has presented no argument that
it could delegate those duties of maintenance and repair to anyone else. Accordingly, Plaintiff has met the
second element for application of the res ipsa loquitur
analysis.
(b)

A Collapsing Chair Does not
Satisfy the Third Element

As for the third res ipsa loquitur requirement, that
the mishap be of a type that ordinarily does not occur
in the absence of negligence, Plaintiff contends that
the collapse of the cabin chair ﬁts the requisite criteria.
The chair allegedly came apart underneath Plaintiff
during the normal use of the chair and Plaintiff states
that nobody ever attempted to use the chair before she
did at the time it collapsed. Because Carnival purportedly offers nothing to show that the negligence could
have been caused from some other person, or entity,
Plaintiff believes that only Carnival [34] can be held
responsible for an accident that would not have occurred absent negligence.
Yet, we ﬁnd that Plaintiff has, as a matter of law,
failed to meet her burden of satisfying this ﬁnal element of the Johnson test. See, e.g., Ashland v. LingTemco-Vought, Inc., 711 F.2d 1431, 1441 (9th Cir. 1983)
(“[W]e want to make clear that the burden is on and
remains with plaintiffs to establish each of the res ipsa

App. 101
elements.”). Res ipsa loquitur presupposes that an accident would not have happened but for the negligence
of the defendant and will generally only apply in unusual circumstances where “the accident leave[s] no
room for a presumption other than negligence on the
part of the defendant. Therefore, it should not be invoked in the face of a competing reasonable inference
that the accident was due to a cause other than defendant’s negligence.” Louisiana & A. R. Co., 380 F.2d at
544 (emphasis added) (citations omitted). As the Tenth
Circuit has explained, an inference of res ipsa loquitur
must fail when an injury may be attributed to another
cause with equal fairness:
If there is any other cause apparent to which
the injury may with equal fairness be attributed, the reason for a res ipsa loquitur inference fails, and the rule should not be
invoked. The mere happening of an accident
does not dispense with the requirement that
the injured party must make some showing
that the defendant against whom relief is
sought was in some manner negligent, where
there are other probable causes of the injury.
Trigg v. City & Cty. of Denver, 784 F.2d 1058, 1061
(10th Cir. 1986); see also Estate of Larkins by Larkins,
806 F.2d 510 (4th Cir. 1986) (“Where varying explanations [35] are equally probable, res ipsa loquitur cannot
apply.”) (citing W. Prosser and W. Keeton, Law of Torts,
248-49, 257-58).
Here, we cannot say that a collapse of a cabin chair
onboard this cruise ship meets the standard of “letting

App. 102
the thing speak for itself.” The only conclusion to draw
from the record is that the evidence presented does not
tell the whole story of why the chair collapsed. It would
therefore be speculation to suggest that only Carnival’s
negligence could have caused the chair to collapse.
There are also plausible explanations for other causes
of the chair collapse that had nothing to do with Carnival.
For example, the facts are in dispute about
whether Plaintiff, her family, or anyone else actually
came into contact with the chair prior to the incident
because Plaintiff occupied the cabin for more than 24
hours prior to the incident.11 But on the other hand, a
trier of fact could ﬁnd those claims not credible and
ﬁnd instead that the primary cause of the chair
11

No doubt, Plaintiff denies having done anything to cause
the chair to fail. Neither Plaintiff nor her family members purportedly interfered with the chair before Plaintiff engaged in a
normal use of the chair by sitting in it:
Q. Did you daughter, to your knowledge, step on the
chair, stand on the chair, do anything of the like?
A. No.
Q. Nothing prior to the incident?
A. No.
Q. Did you husband, to your knowledge, stand on the
chair?
A. No.
Q. Do anything other than – anything other with the
chair that we wouldn’t normally see someone do with
the chair, is that correct?
A. No.
Deposition of Plaintiff, at 134:2-14.

App. 103
collapse was misuse by a passenger or her family. Because a passenger like the Plaintiff undoubtedly had
physical possession [36] of the chair for a material period of time, this plausible explanation undermines the
case for a res ipsa presumption against Carnival.
Similarly, even assuming that neither Plaintiff nor
anyone else in her party ever abused the chair, that assertion cannot automatically foreclose other reasonable scenarios where other individuals or passengers
who used that room before the Plaintiff may have been
responsible for the collapsing chair. The same chairs
remain in each cabin voyage after voyage, meaning
hundreds, if not thousands, of different passengers of
all different sizes use the cabin chairs. This plausible
scenario also undercuts the Plaintiff ’s theory. See Garner v. Halliburton Co., 474 F.2d 290, 297 (10th Cir.
1973) (ﬁnding that res ipsa does not apply in situations
where the reason for the negligent conduct “might easily have been due to the act of a third party”); CSX
Transp., Inc. v. Exxon/Mobil Oil Corp., 401 F. Supp. 2d
813, 821 (N.D. Ohio 2005) (“The doctrine . . . does not
apply if facts show a force beyond defendant’s control
may have caused the harm.”) (citing Cleveland R.R. Co.
v. Sutherland, 115 Ohio St. 262, 265 (1926)); Harris v.
Nat’l Passenger R.R. Corp., 79 F. Supp. 2d 673, 679
(E.D. Tex. 1999), aff ’d, 234 F.3d 707 (5th Cir. 2000)
(ﬁnding that “plaintiff cannot reduce the likelihood of
other causes leaving only the defendant’s negligence.
The fact that [a] door could be opened by anyone,
leaves open the signiﬁcant possibilities of the

App. 104
plaintiff ’s own negligence or a third-party’s negligence
as a cause for the accident.”).
While Plaintiff “need not eliminate all other possible causes,” of the reason for the collapsed chair, the
Restatement (Second) of Torts establishes that a [37]
plaintiff “must demonstrate the absence of equally
probable alternative causes for the injury”:
It is . . . necessary to make the negligence
point to the defendant. On this . . . the plaintiff has the burden of proof by a preponderance of the evidence; and in any case where
there is no doubt that it is at least equally
probable that the negligence was that of a
third person, the court must direct the jury
that the plaintiff has not proved his case.
Trigg, 784 F.2d at 1060–61 (quoting Restatement (Second) of Torts § 328D comment f (1965)).
Plaintiff ’s argument here cannot satisfy this burden. Given the record presented, Plaintiff ’s claims do
not warrant an inference of res ipsa loquitur because
“[n]either common sense nor anything in the record
compels the conclusion that only poor maintenance or
careless inspection will lead to a chair’s breaking. It is
quite plausible that the defect which caused the collapse developed slowly and was not detectable from
normal inspection.” Giacomelli, 1991 WL 229957, at *2.
It is equally possible that Plaintiff, guests, visitors, or
third parties beforehand mishandled the chair in such
a way that Carnival could not detect that the chair was
defective. These are merely some out of the many

App. 105
competing inferences that can be drawn given the facts
of this case. Thus, the res ipsa doctrine cannot apply
“to a case having a divided responsibility where an unexplained accident may have been attributable to one
of several causes, for some of which the defendant is
not responsible.” Brown v. Guzman, 1965 WL 168019,
at *2 (V.I. Mun. Aug. 10, 1965) (citation and quotation
marks omitted).
[38] Moreover, the facts presented simply do not
rise to the level of an unusual event – often necessary
for the doctrine to apply – that gives rise to an inference that Carnival must have been negligent. The
Latin phrase of res ipsa, “the thing speaks for itself,”
means that a plaintiff ’s injury and the events surrounding it can by themselves show negligence. Examples of cases where res ipsa has been applied are
noticeably distinguishable from the facts of this case,
such as the derailment of a railway car, or a piano falling off a building. See, e.g., Newell v. Westinghouse Elec.
Corp., 36 F.3d 576, 579 (7th Cir. 1994) (“The rule relieves a plaintiff who, for example, opens a new tin of
chewing tobacco and ﬁnds inside a human toe, from
having to show exactly what act was responsible for
the toe’s inclusion in his tobacco.”) (citing Pillars v.
R.J. Reynolds Tobacco Co., 117 Miss. 490, 78 So. 365
(1918)); Hubschman v. Antilles Airboats, 440 F. Supp.
828 (D.V.I. 1977) (seaplane engines dying midﬂight);
T. Slack, Pﬁffner v. Correa: Determining the Necessity
of Expert Testimony in A Medical Malpractice Claim,
41 Loy. L. Rev. 365, 374 (1995) (“Speciﬁc examples
deal with a physician fracturing a leg during an

App. 106
examination, dropping a knife, scalpel, or acid on a patient, or leaving a sponge in a patient’s body.”) (citations omitted). The aforementioned circumstances are
not ordinarily subject to reasonable dispute because it
is generally understood that these sorts if incidents
cannot occur absent negligence.
We ﬁnd that the recent decision in Aubain v. Kazi
Foods of the V.I., Inc., 2016 WL 4490614, at *1 (V.I. Super. Aug. 23, 2016), is persuasive. The defendant in Aubain operated a business (a Pizza Hut) where plaintiff
alleged he was injured [39] when he sat on a bench and
it collapsed underneath him on account of a loose
wooden peg. The plaintiff claimed that he injured his
chin, back, and hip in the fall, and defendant moved for
summary judgment. Because plaintiff could not meet
all the elements of a traditional negligence claim,
plaintiff attempted to defeat defendant’s motion for
summary judgment by claiming that the accident was
of a kind that did not occur in the absence of negligence. But the court granted summary judgment in
favor of the defendant because “with the possible exception of ‘slip-and-fall’ cases, it is hard to get less extraordinary than a ‘sit-and-fall’ case” because “many in
the community would say that even well-maintained
furniture breaks and even recently-inspected pegs
come loose.” Id. at *7 (emphasis added). The court explained that this case was “just one of the ‘many types
of accidents which occur without the fault of anyone.’ ”
Id. (citing Restatement (Second) of Torts § 328D comment c). Accordingly, the court held that the “balance
of probabilities of what caused [plaintiff ’s] accident

App. 107
would certainly ‘be reasonably questioned or disputed,’ ” and that plaintiff could not “apply res ipsa loquitur to halt the entry of summary judgment,” in
favor of the defendant. Id. The court noted in particular that, although advisory, the comments to the Restatement (Second) of Torts noticeably do “not include
broken benches, broken chairs, or any equivalent accidents as examples of the types of events that do not
ordinarily occur unless someone has been negligent.”
Id. at *7 n.14 (emphasis added).
[40] We agree. Speciﬁcally, the Restatement states
that far more unusual circumstances such as gas explosions, or train derailments apply to the doctrine of
res ipsa:
[T]here are many events, such as those of objects falling from the defendant’s premises,
the fall of an elevator, the escape of gas or water from mains or of electricity from wires or
appliances, the derailment of trains or the explosion of boilers, where the conclusion is at
least permissible that such things do not usually happen unless someone has been negligent. To such events res ipsa loquitur may
apply.
Restatement (Second) of Torts § 328D comment c (emphasis added). While the Restatement is not binding
authority, it is inﬂuential because (1) courts have continually relied upon it in a variety of contexts, and (2)
federal maritime law is drawn from state and federal
sources, including bodies of maritime tort principles.

App. 108
We acknowledge that, based upon our own independent research, there is a split of authority on
whether a collapsing chair can meet all three elements
of res ipsa. In many decisions since the 1980s, courts
have found that collapsing chairs often fail to meet the
doctrine because of the many possible explanations for
why a chair might collapse. See, e.g., Family Thrift, Inc.,
336 Ga. App. at 605 (holding that res ipsa was inapplicable to a collapsing chair at a store’s dressing room
because “[c]ertainly, through normal wear and tear, a
chair – especially a used chair donated to a thrift store
– can cease fulﬁlling its intended function and create a
hazardous condition without negligence on the part of
any individual.”) (citing Watts & Colwell Builders, Inc.
v. Martin, 313 Ga. App. 1, 6, 720 S.E.2d 329 (2011)
(holding that res ipsa loquitur was not applicable to
ﬁnd defendant liable for injury caused when the door
to a bathroom stall fell off its hinges and knocked
plaintiff to the [41] ground because the failure of a
hinge could have occurred in the absence of negligence); Ballard v. S. Reg’l Med. Ctr., Inc., 216 Ga. App.
96, 99, 453 S.E.2d 123 (1995) (holding that res ipsa loquitur was not applicable to ﬁnd defendant liable when
a handrail pulled out from the wall because the accident was not of the type that ordinarily occurs only because of someone’s negligence)); Piligian v. United
States, 642 F. Supp. 193, 197 (D. Mass. 1986) (“[T]he
Court rules that res ipsa loquitur does not permit an
inference of negligence in this case because the Court
is not persuaded that the chair would ordinarily collapse only if the United States had been negligent.”);
Kilgore v. Shepard Co., 52 R.I. 151, 158 A. 720, 721

App. 109
(1932) (ﬁnding that the doctrine of res ipsa loquitur
has no application to a door and that “a chair should
be placed in the same category.”); see also Bonilla v.
Univ. of Montana, 116 P.3d 823, 827 (Mont. 2005) (holding that the fact that a chair collapses “is insufﬁcient
evidence, by itself, to satisfy the Restatement’s requirement under subsection 1(b) that other responsible
causes must be ‘sufﬁciently eliminated.’ ”).
On the other hand, some courts – primarily in
older cases – have reached the opposite conclusion for
a myriad of reasons. See, e.g., Gresham v. Stouffer
Corp., 144 Ga. App. 553, 553, 241 S.E.2d 451 (1978)
(holding that in the case of a restaurant chair, “a jury
would be authorized to infer negligence from the evidence that the chair collapsed during ordinary use by
the plaintiff.”) (citing Raffa v. Central School Dist., 227
N.Y.S.2d 723 (1962); Tuso v. Markey, 61 N.M. 77, 80,
294 P.2d 1102 (1956) (holding that a plaintiff ’s “general allegations of negligence, [42] accompanied by an
allegation and proof that the instrumentality causing
the accident was under the exclusive control of appellees, warranted [the] application” of res ipsa) (citations
omitted); Van Staveren v. F. W. Woolworth Co., 29 N.J.
Super. 197, 102 A.2d 59, 62 (N.J. Super. Ct. App. Div.
1954) (holding that the motion for a judgment in favor
of the defendant was properly denied because the collapsing “stools had been installed at the counter in
1948 and since then had been in constant use,” and “[i]t
was acknowledged by the representative of the defendant that no inspection whatever had been made of the
brackets, bolts, or adjustments beneath the seats of the

App. 110
stools during the period from 1948 until the occurrence
of the mishap in 1951.”); Rose v. Melody Lane of Wilshire, 39 Cal. 2d 481, 247 P.2d 335, 338 (1952) (“Seats
designed for use by patrons of commercial establishments do not ordinarily collapse without negligence in
their construction, maintenance, or use.”) (citations
omitted)).
While none of the aforementioned cases are necessarily controlling, they demonstrate that the application of res ipsa has continually evolved since its
inception and that jurisdictions have varied considerably in their interpretations. See Holmes v. Bright Beginnings CDC, 2017 WL 421642, at *4 (C.D. Cal. Jan.
30, 2017) (“As later courts repeated the phrase, it
evolved into the name of a rule for determining
whether circumstantial evidence of negligence is sufﬁcient,” and therefore “[t]he procedural and evidentiary
consequences that follow from the conclusion that an
accident ‘speaks for itself ’ vary from jurisdiction to jurisdiction.”). Since the ﬁrst res ipsa case, where a barrel of ﬂour rolled out of a warehouse [43] window and
fell on a pedestrian, courts have both broadened and
restricted the doctrine’s application at various points
in time. See, e.g., United States v. Kesinger, 190 F.2d
529, 532 (10th Cir. 1951) (“The modern trend of authority is to hold the rule of res ipsa loquitur applicable to
airplane accidents, and we hold that it was applicable
under the facts and circumstances presented in the instant case.”) (footnote omitted).
As an example, the meaning of exclusive control
would have already foreclosed the application of res

App. 111
ipsa in this case because this element was far more restrictive in the earlier twentieth century. Yet “the modern trend has been toward a more relaxed analysis of
‘exclusivity,’ one asking whether the defendant, as opposed to a third party, is likely, by virtue of a close
(though perhaps not truly exclusive) relationship to
the accident, to have relatively superior knowledge regarding the accident’s cause.” Williams v. KFC Nat.
Mgmt. Co., 391 F.3d 411, 427 n.9 (2d Cir. 2004). Florida
state courts, for instance, have “expanded the doctrine
far beyond its intended perimeters, both by liberalizing
the elements requisite to its application and by allowing the development of inferences not only as to the
incident itself but also as to pre-incident acts, such as
manufacture or production.” Chambliss, 511 So. 2d at
413–14; see also M. Johnson, Note, Rolling the “Barrel”
a Little Further, 38 Wm. & Mary L.Rev. 1197, 1202–04
(1997) (describing the various American approaches to
the doctrine of res ipsa loquitur).
After an exhaustive review of collapsing chair
cases in both state and federal courts in the last one
hundred years, we ﬁnd that the modern trend reﬂects
the [44] view that “[w]hile it may be assumed . . . that
a chair does not ordinarily collapse except for the negligence of someone, it does not necessarily follow that
the collapse of a chair . . . must imply the negligence of
the proprietor.” Rose v. McMahon, 10 Mich. App. 104,
107, 158 N.W.2d 791 (1968). As support for this view,
we ﬁnd that there are generally three types of cases
where plaintiffs invoke the res ipsa doctrine. The ﬁrst
is where there is sufﬁcient evidence that a defendant

App. 112
caused plaintiff ’s injury. This is basically the type of
situation in the 1863 case involving the falling barrel
of ﬂour. This is generally the easiest case to present to
a jury because there are few to no competing inferences
as to the cause of an accident; the only question presented is whether a speciﬁc defendant was actually
negligent or not. See, e.g., State of Cal. By & Through
Dep’t of Fish & Game v. S.S. Bournemouth, 318 F. Supp.
839 (C.D. Cal. 1970) (“Factually, this case presents an
appropriate situation for the application of res ipsa loquitur. All of the traditional elements are present . . .
it is clear that an oil spill of this size could occur only
in an extremely limited number of ways – primarily as
the result of pumping the bilges or an internal fuel oil
transfer.”).
The second type of case is where there is evidence
that a plaintiff was injured on account of negligence,
but there is an open question as to whether the defendant or someone else was at fault. See, e.g., Ybarra v.
Spangard, 25 Cal. 2d 486, 154 P.2d 687 (1944). And the
third scenario involves the question of whether it was
defendant’s negligence, rather than some other nonnegligent act, or the action of a third party (including
the plaintiff ) that caused the injury. As one might expect, the [45] third scenario, which is the case here, is
the toughest to present to a jury because the inference
that negligence occurred at all cannot be easily drawn.
And even if negligence can be established, there remains an open question of who was the cause of that
negligence.

App. 113
The facts in our case squarely ﬁt the third scenario. Hence, the authority in for these types of cases
is much more uniform since the 1980s, whether the
item in question was a chair or not. As an example, in
a 1987 decision – Otis Elevator v. Chambliss – a Florida state appellate court reversed the trial court and
held that an injured customer could not rely upon res
ipsa where the customer failed to carry his burden of
showing that an escalator’s stopping was due to negligence. See Chambliss, 511 So. 2d at 413. The appellate
court ruled that res ipsa could not apply even though
Florida courts have liberalized the doctrine far beyond
its intended perimeters. More speciﬁcally, the court
found that res ipsa is only applicable where negligence
is the probable cause of the accident in question and
where the defendant is the probable actor. Because
plaintiffs in Chambliss relied solely on the fact that
the escalator stopped, they failed to meet “their initial
burden of showing by appropriate evidence that negligence was the probable cause for the escalator’s stopping.” Id.
Although Chambliss is admittedly not a collapsing
chair case, it remains persuasive because it stands for
the principle that, in modern res ipsa cases involving
the third scenario explained above, a plaintiff cannot
merely rely on the fact that an accident occurred to
apply the doctrine and defeat summary judgment. [46]
See, e.g., De Zayas v. Bellsouth Telecommunications,
Inc., 841 F. Supp. 2d 1257, 1261–62 (S.D. Fla. 2012)
(“Plaintiffs have failed to present sufficient evidence
of these elements to survive summary judgment . . .

App. 114
Plaintiffs have failed to create a genuine dispute of fact
as to whether there was an ‘event’ which caused ‘an injury’ – i.e., that any hazardous amount of pentachlorophenol was found in their water or on their property,
or that there was an ‘instrumentality’ that ‘caused’ any
injury.”). Chambliss is also convincing because it involves an escalator, which courts have historically
found to apply in the res ipsa context. Thus, Chambliss
demonstrates that it is not necessarily the item (i.e. a
chair or escalator) that automatically triggers the application of the res ipsa doctrine; it is the speciﬁc facts
of each case and the evidence presented that must be
carefully examined. This means that, while an item in
one case may meet all the elements of res ipsa, another
case involving the same item may not.
An equally persuasive case is a Georgia appellate
court decision from 1995, where a plaintiff was injured
as a result of a handrail being pulled out from a wall
at a medical center. See Ballard, 216 Ga. App. At 96.
The trial court granted summary judgment in favor of
the defendant and the appellate court afﬁrmed. The
appellate court found that plaintiff could not rely on
the doctrine of res ipsa because “it is not applicable
when there is an intermediary cause which produced
or could produce the injury, or where there is direct unambiguous testimony as to the absence of negligence
by the defendant, or where there is no fair inference
that the defendant was negligent.” Id. at 99 (emphasis
in original) (citations and quotation [47] marks omitted). Speciﬁcally, the court stated that “[a]lthough the
devices that failed here (the screws and brackets

App. 115
holding the handrail to the wall or the wall itself ) are
by no means as complicated as an escalator, they too
can cease fulﬁlling their intended function and create
a dangerous condition without someone’s negligence.”
Id. (citations omitted). As such, the trial court properly
granted defendant’s motion for summary judgment because the elements of res ipsa could not be established
given that this type of accident under the facts presented could have occurred for a variety of reasons.
Another analogous, but older, case to the facts presented is the decision in Evansville Am. Legion Home
Ass’n v. White, 154 N.E.2d 109, 111 (Ind. 1958) overruled on other grounds by McGlothlin v. M & U Trucking, Inc., 688 N.E.2d 1243 (Ind. 1997). In Evansville, a
plaintiff attended a bingo game on the evening of the
accident. After entering the bingo hall, she sat on a
chair and it immediately collapsed. Plaintiff argued
that res ipsa applied because an inference of negligence arose from the mere fact that a chair collapsed.
Yet, the Indiana Supreme Court found that res ipsa
could not apply because there was (1) no evidence of
negligence, (2) no showing that the defendant had any
prior knowledge of the defective chair, and (3) no suggestion that defendant had cause to suspect that the
chair was defective. As such, there was no evidence
that negligence proximately caused the injury more so
than any other explanation for the chair’s collapse. The
court noted that “thousands of people had used the
chairs, including the one in question during a period of
some seven years without a single incident where one
had collapsed [48] while at the hall.” Evansville Am.

App. 116
Legion Home Ass’n, 154 N.E.2d at 111. Accordingly, the
Indiana Supreme Court found that res ipsa could not
apply.
Every res ipsa case that we have reviewed since
the 1980s that involves the third scenario – i.e. the situation of where it is unclear as to whether negligence
occurred at all or if a third party (including the plaintiff ) may be at fault – supports Carnival’s contention
that the doctrine cannot apply in this action. See, e.g.,
Loiacono v. Stuyvesant Bagels, Inc., 814 N.Y.S.2d 695,
696 (2006) (afﬁrming the trial court’s order granting
the defendants’ motion for summary judgment because
the doctrine of res ipsa was inapplicable in a collapsing
chair case because many customers sat on a chair
before the injured plaintiff ); Harper v. Advantage
Gaming Co., 880 So. 2d 948, 953 (La. Ct. App. 2004)
(“[P]laintiff has not demonstrated factual circumstances which would show that the only reasonable
conclusion is that defendants’ breach of duty caused
the accident. The testimony of the restaurant manager
that the employees regularly checked the condition of
the furniture during their daily cleaning and that
other patrons had used the stools without any complaint that they were broken or unsteady does not support an inference that defendants were negligent.”).
Given this record, the inconclusive evidence presented as to why the chair collapsed, and the fact that
res ipsa is a “doctrine of extremely limited applicability,” we cannot conclude that only Carnival’s negligence
could have resulted in the collapse of the cabin chair or
that Carnival’s alleged negligence is more probable

App. 117
[49] than all other competing inferences. See Monforti
v. K-Mart, Inc., 690 So. 2d 631, 633 (Fla. 5th DCA 1997).
Accordingly, Plaintiff has failed to meet her burden in demonstrating that a res ipsa inference can be
applied to the facts of this case because the thrust of
her argument is merely that a chair collapsed and that
she was injured. See Ugaz v. Am. Airlines, Inc., 576
F. Supp. 2d 1354, 1369 (S.D. Fla. 2008) (ﬁnding no inference of negligence as a matter of law because the
plaintiff had “shown nothing more than that [she] had
been injured on the escalator,” and “based on this fact
alone it would not be likely that someone other than
the [plaintiff ] had been negligent.”) (citations omitted).
Without any other evidence, we do not have any way of
inferring that (1) the reason for the chair’s collapse was
because of negligence, or (2) that Carnival was the
probable actor of that negligence. In other words, there
are many reasons as to why the cabin chair in this case
could have collapsed, including (1) Carnival’s negligence, (2) a non-negligent reason (i.e. wear and tear or
a latent defect), (3) Plaintiff, (4) Plaintiff ’s guests or
family members, or (5) the hundreds, if not, thousands
of people that have occupied that room.
In short, if we adopted Plaintiff ’s position, the res
ipsa loquitur doctrine, which should be applied only in
the rarest of cases, would be a frequently used tool to
bypass summary judgment in cases where no prior

App. 118
actual or constructive notice was established. This cannot be the law, especially in this circuit.12
[50] Because Plaintiff cannot rely on the doctrine
of res ipsa in this case, we are left with a case where
actual or constructive notice has not been established,
where we cannot merely presume that Carnival was
negligent, and where the record does not allow for a
jury to ﬁnd in Plaintiff ’s favor. Consequently, we have
no option but to grant Defendant’s motion for summary judgment on Plaintiff ’s negligence claim. We,
therefore, recommend that the motion be GRANTED.
B.

Plaintiff ’s Motion for Summary
Judgment [D.E. 39]

Plaintiff ’s ﬁrst argument in her cross-motion is
that she is entitled to summary judgment on Carnival’s ﬁrst afﬁrmative defense, which alleges that “the
negligence, actions, and/or misaction of the Plaintiff
was the sole and proximate cause of any and all injuries and damages.” [D.E. 5]. Plaintiff contends that
Carnival can produce no record evidence that would allow a jury to ﬁnd in its favor with respect to comparative fault. Therefore, Plaintiff suggests that summary
judgment must be entered in her favor in connection
with Carnival’s ﬁrst afﬁrmative defense. Carnival’s
Cf. Pizzino v. NCL (Bahamas), Ltd., No. 16-16812, 2017
WL 4162194, at *3 (11th Cir. Sept. 20, 2017) (rejecting assertion
that a cruise ship operator can be liable for negligence without
notice even if it created the dangerous condition that injured a
plaintiff).
12

App. 119
only response is that it withdraws its ﬁrst afﬁrmative
defense regarding the comparative negligence of Plaintiff. Therefore, partial summary judgment on this issue
should be MOOT.
Next, Plaintiff advances the same arguments discussed above in that res ipsa loquitur applies to this
case because (1) Carnival had exclusive control of the
chair at the time of the incident and, that (2) the chair
would not have broken absent negligence on behalf of
Carnival. However, we have already discussed this issue above and ﬁnd that Plaintiff simply repeats the
same arguments presented in her [51] opposition to
Defendant’s motion. We ﬁnd that Plaintiff has failed
(1) to meet all of the elements of res ipsa loquitur and
(2) to demonstrate that Carnival had actual or constructive notice of the cabin chair. Because Plaintiff
has failed to establish all the elements of her negligence claim, Plaintiff ’s motion, on this basis, should be
DENIED.
Plaintiff ’s ﬁnal argument is that spoliation sanctions should be imposed because Carnival failed to preserve the cabin chair and that the failure to do so
defeats Carnival’s primary argument that it lacked actual or constructive notice. As a general rule, Carnival’s disposal of the cabin chair may warrant sanctions
in the form of either (1) dismissing the case altogether,
(2) excluding expert testimony, or (3) instructing the
jury that spoliation of evidence raises a presumption
against Carnival. See Flury v. Daimler Chrysler Corp.,
427 F.3d 939, 945 (11th Cir. 2005). Plaintiff contends
that Carnival’s disposal of the chair constitutes

App. 120
spoliation because Carnival knew or should have
known that the chair caused injuries to Plaintiff and
that Carnival removed the chair in bad faith.
Speciﬁcally, Plaintiff states that after the accident,
she and her husband called guest services and sought
medical attention on the ship after the incident occurred. Thereafter, Plaintiff claims that Carnival committed an afﬁrmative act by removing the chair in full
view of Plaintiff who lay injured on the ﬂoor.13 [52]
Plaintiff suggests that the undisputable fact remains
that the cruise line took the broken chair and disposed
of it under circumstances where it knew or should have
known that Plaintiff was injured as a result of the
chair’s collapse. Plaintiff ’s husband then reported the
incident through a passenger injury statement, which
was completed approximately 30 minutes after the incident occurred. As such, Plaintiff believes that Carnival cannot explain away its disposal of the cabin chair
as mere negligence because Carnival engaged in an afﬁrmative act and Plaintiff alleges that Carnival should
have known that the chair would be crucial evidence

13

If cabin furniture is reported broken, a room steward removes the furniture and replaces it. If possible, the furniture will
be ﬁxed, otherwise it is disposed. Whether something is preserved
in anticipation of litigation is a decision that is made by Carnival
security personnel. Plaintiff did not speak to security personnel
about her incident, and no investigation was launched into Plaintiff ’s accident. Therefore, Plaintiff’s injury was classiﬁed as a nonreportable incident

App. 121
in determining how the chair came apart, including
the nature of the defect.14
“ ‘Spoliation’ is the intentional destruction, mutilation, alteration, or concealment of evidence.’ ” Walter
v. Carnival Corp., 2010 WL 2927962, at *2 (S.D. Fla.
July 23, 2010) (citing St. Cyr v. Flying J Inc., 2007 WL
1716365 at *3 (M.D. Fla. June 12, 2007)). To establish
spoliation, Plaintiff must prove (1) that the missing evidence existed at one time, (2) that Carnival had a
duty15 to preserve the chair as evidence, and (3) that
the evidence was crucial to Plaintiff being able to prove
its prima facie case. See Floeter v. City of Orlando, 2007
WL 486633, at *5 (M.D. Fla. Feb. 9, 2007). “However, a
party’s failure to preserve evidence rises to the level of
sanctionable spoliation ‘only when the absence of that
evidence is [53] predicated on bad faith,” such as where
a party purposely loses or destroys relevant evidence.’ ”
Walter, 2010 WL 2927962, at *2 (citing Bashir v.
Amtrak, 119 F.3d 929, 931 (11th Cir. 1997) (emphasis
added)). And “[m]ere negligence” in losing or destroying records is not enough for an adverse inference, as
“it does not sustain an inference of consciousness of a
weak case.” Vick v. Texas Employment Comm’n, 514
14

Carnival’s medical staff determines if an injury is reportable to security, and an injury that requires anything beyond ﬁrst
aid is considered to be a reportable accident that gives rise to an
anticipation of litigation.
15
The duty to preserve evidence may arise prior to the commencement of litigation when a party contemplates litigation and
it is reasonably foreseeable that the evidence is relevant to the
litigation. See St. Cyr v. Flying J Inc., 2007 WL 1716365, at *3
(M.D. Fla. June 12, 2007).

App. 122
F.2d 734, 737 (5th Cir. 1975). In fact, even gross negligence is insufﬁcient to make a ﬁnding of bad faith. See,
e.g., Wandner v. Am. Airlines, 79 F. Supp. 3d 1285, 1298
(S.D. Fla. 2015) (“Given this Circuit’s requirement that
an adverse inference ﬂowing from spoliation requires
the presence of bad faith, even grossly negligent discovery conduct does not justify that type of jury instruction.”); Selectica, Inc. v. Novatus, Inc., 2015 WL
1125051, at *3 (M.D. Fla. Mar. 12, 2015) (ﬁnding that
gross negligence will not support the imposition of spoliation sanctions).
“If direct evidence of bad faith is unavailable, bad
faith may be founded on circumstantial evidence when
the following criteria are met: (1) evidence once existed
that could fairly be supposed to have been material to
the proof or defense of a claim at issue in the case; (2)
the spoliating party engaged in an afﬁrmative act
causing the evidence to be lost; (3) the spoliating party
did so while it knew or should have known of its duty
to preserve the evidence; and (4) the afﬁrmative act
causing the loss cannot be credibly explained as not involving bad faith by the reason proffered by the spoliator.” Walter, 2010 WL 2927962, at *2 (quoting Calixto
v. Watson Bowman Acme Corp., 2009 WL 3823390, at
*16 (S.D. Fla. Nov. 16, 2009)).
[54] One possible ﬂaw in Plaintiff ’s argument is
that the evidence suggests that Carnival may not have
reasonably anticipated litigation. “Once a party reasonably anticipates litigation, it is obligated to suspend its routine document retention/destruction policy
and implement a ‘litigation hold’ to ensure the

App. 123
preservation of relevant documents.” Goodman v. Praxair Services, Inc., 632 F. Supp. 2d 494, 511 (D. Md.
2009) (quoting Thompson v. U.S. Dept. of Housing &
Urban Development, 219 F.R.D. 93, 100 (D. Md. 2003));
U.S. ex rel. King v. DSE, Inc., 2013 WL 610531, at * 7
(M.D. Fla. Jan. 17, 2013) Report and Recommendation
adopted, 2013 WL 608541 (M.D. Fla. Jan.15, 2014)
(When party becomes aware of claims or defenses it
has an obligation to conscientiously preserve all evidence that is relevant to those claims and defenses
that is in existence when the duty to preserve attaches.).
Plaintiff appears to assume that because she
called guest services and went to the medical center to
complete a passenger injury statement that Carnival
should have reasonably anticipated litigation. The passenger injury statement in this case is a one-page document that states, among other things, the date, time,
room number, the witnesses of the accident, and what
Plaintiff was doing at the time of the accident. After
reviewing the passenger injury statement, it is noticeably short on details. The statement provides that
Plaintiff called guest services and went to the medical
center at 8pm. In answering the question of whether
she was hurt, she states that the “[c]hair broke while
sitting in it,” and that her “arm landed on [the] shelf.”
[D.E. 44-8]. She also claims that she and her husband
witnessed the [55] incident and that she was drying
her hair at the time of the accident. In response to
what happened in detail, she states again that she was
drying her hair when the chair leg broke and that she

App. 124
landed on her right arm with all her weight. Other
than the miscellaneous details discussed above, the
only other material statement on the form is that the
accident occurred in her room and that a new chair
would have avoided the accident.
“ ‘The obligation to preserve evidence arises when
the party has notice that the evidence is relevant to
litigation or when a party should have known that
the evidence may be relevant to future litigation.’ ”
Zubulake v. UBS Warburg LLC, 220 F.R.D. 212, 216
(S.D.N.Y. 2003). “This notice may come at hands of differing events, but mostly commonly, a party is deemed
to have notice of pending litigation if the party has received a discovery request, a complaint has been ﬁled,
or any time a party receives notiﬁcation that litigation
is likely to be commenced.” Oxford House, Inc. v. City of
Topeka, Kansas, 2007 WL 1246200, at *3 (D. Kan. Apr.
27, 2007). In other words, “[a] party has the requisite
notice when it can reasonably anticipate impending litigation – that is, litigation that has ‘more than a possibility’ of occurring – to which the evidence would be
relevant.” Garcia v. United States, 2014 WL 12709430,
at *1 (C.D. Cal. Sept. 3, 2014) (quoting Realnetworks,
Inc. v. DVD Copy Control Ass’n, Inc., 264 F.R.D. 517,
523–24 (N.D. Cal. 2009)). This means that “[a] general
concern over litigation does not trigger a duty to preserve evidence,” because there is “no duty to preserve
relevant documents or evidence [56] until a potential
claim [is] identiﬁed or future litigation [is] probable.”
Realnetworks, Inc., 264 F.R.D. at 526.

App. 125
Here, there does not appear to be any concrete evidence that future litigation was probable or that litigation was looming against Carnival. While “litigation
often ensues when persons are injured in commercial
premises such as those operated by the defendant,”
“that alone is not sufﬁcient to transform [a] document
from one prepared in the ordinary course of the defendant’s business to one prepared in anticipation of litigation.” Danza v. Costco Wholesale Corp., 2012 WL
832289, at *2 (E.D.N.Y. Mar. 12, 2012). If Plaintiff had
given Carnival sufﬁcient notice of impending litigation, then that would have obviously created a duty for
Carnival to preserve the broken chair.
Carnival’s arguments are persuasive for several
reasons. First, the medical staff determined that a reportable accident was not required in this case and
that security need not be contacted.16 Second, Plaintiff
never states that she disagreed with a medical diagnosis, or that she spoke to security – or Carnival’s management – herself to notify Carnival that she sought to
classify the accident as a reportable offense. Third,
there is no evidence that Plaintiff requested that the
broken chair be preserved as an indicator that she
planned to ﬁle suit. Fourth, Plaintiff ’s passenger injury statement was not a formal accident report. And
ﬁfth, Plaintiff ’s passenger injury statement is short on
details and only establishes that (1) Plaintiff was

16

Carnival’s security staff determines whether something is
preserved in anticipation of litigation.

App. 126
drying her hair, (2) the chair broke, and (3) Plaintiff
landed on her arm.
[57] And even if we assumed that Plaintiff had
ﬁled a formal accident report in this case, it is possible
that Plaintiff has not met her burden of establishing
that it was “ ‘prepared exclusively and in speciﬁc response to imminent litigation’ as opposed to in the normal course of business.” Vessalico v. Costco Wholesale
Warehouse, 2016 WL 3892403, at *2 (E.D.N.Y. July 14,
2016) (holding that accident reports are discoverable if
there is nothing to suggest that it is prepared exclusively in anticipation of litigation); see also Willis v.
Westin Hotel Co., 1987 WL 6155, at *1 (S.D.N.Y. Jan.
30, 1987) (“[M]aterial prepared by non-attorneys in anticipation of litigation, such as accident reports and
other investigative reports, is immune from discovery
only where the material is prepared exclusively and in
speciﬁc response to imminent litigation. The mere contingency that litigation may result does not give rise to
the privilege.”).
Of course, courts have also held that accident reports may be privileged where there is sufﬁcient evidence, that upon the advice of legal counsel, the report
was created in anticipation of litigation. See, e.g., Eisenberg v. Carnival Corp., 2008 WL 2946029, at *3
(S.D. Fla. July 7, 2008) (“[T]he accident report form utilized by Carnival was drafted by counsel for Carnival
Cruise Lines and every completed accident report and
photographs taken at the time of the accident are provided to counsel for Carnival following an accident.
Based upon this sworn evidence, the Court ﬁnds that

App. 127
at least one of the principle purposes for generating
these reports is the preparation of Carnival’s defense
to litigation if it ensues. That is sufﬁcient to trigger
qualiﬁed work product production.”) (citation omitted);
[58] Carnival Corp., 238 F.R.D. 318, 319 (S.D. Fla.
2006) (holding that a defendant cruise line’s accident
report regarding a slip and fall was not discoverable
where the cruise line submitted an afﬁdavit from its
guest claims manager stating that it was the policy of
the cruise line, upon the advice of its legal counsel, to
investigate passenger injuries and create the accident
report in anticipation of litigation); Iaquinto v. Carnival Corp., Case No. 05-21652-CIV-JORDAN (DE 18)
(S.D. Fla. Nov. 18, 2005) (same); Hickman v. Carnival
Corp., 04-20044-CIV-UNGARO (DE 34) (S.D. Fla. Aug.
16, 2004) (ﬁnding cruise line accident report privileged
where afﬁdavit showed that it was prepared on the advice of counsel to provide claims handling information
in anticipation of litigation).
Yet, in this case, Plaintiff has not necessarily met
her burden of establishing that the passenger injury
statement was prepared in direct anticipation of litigation.17 And the document, by itself, does not as a per se
rule automatically trigger a duty that Carnival should
have anticipated litigation. Rather, the facts suggest
that Plaintiff merely completed a form that was short
on details, was not a formal accident report, and “appears to be a standard form that is completed in the
17

For instance, Plaintiff does not point to any deﬁnite shift
made by her or Carnival that deviates from Carnival acting in its
ordinary course of business to acting in anticipation of litigation.

App. 128
ordinary course of business whenever an accident occurs on Defendant’s property.” Vessalico, 2016 WL
3892403, at *2. Plaintiff appears to propose a rule
where any routine passenger injury statement (let
alone one that is scarce on details) puts a cruise ship
on notice that litigation may ensue, even in circumstances where parties have not met any burden to support that position. As a consequence of that view, it [59]
would require commercial operators, like Carnival, to
preserve almost anything in question where a passenger was injured or became ill. See, e.g., McIntosh v.
United States, 2016 WL 1274585, at *34 (S.D.N.Y. Mar.
31, 2016) (“[T]o hold otherwise would essentially lay
down a rule that prison ofﬁcials should anticipate litigation whenever an inmate makes a complaint about
any condition of his conﬁnement.”) (citation and quotation marks omitted).
Morever, assuming that Plaintiff had established
all of the elements (including bad faith) of spoliation,
it does not necessarily follow that an adverse inference
against Carnival for the destruction of the cabin chair
would establish that Carnival had actual or constructive notice. Stated differently, if we assume that the
cabin chair was still in the possession of Carnival, it is
not clear how we could determine that Carnival had
notice. The most likely inference to draw from a collapsing chair is causation or damages in that the chair
caused Plaintiff to fall and resulted in injuries to her
arm.
Plaintiff does not address this point in her papers,
nor does she explain how an adverse inference can be

App. 129
drawn in this case (assuming that spoliation exists) to
remedy her negligence claim. Plaintiff only states that
Carnival’s spoliation of the cabin chair gives rise to a
presumption of negligence, which defeats Carnival’s
lack of notice argument. But, Plaintiff does not point to
any case where a court has made an adverse inference
to defeat the notice requirement in a negligence action,
or, for that matter, any case where an inference is
drawn where it is materially [60] disconnected from
the alleged spoliation. This is one of many reasons as
to why we cannot adjudicate Plaintiff ’s motion at this
time.18
“Many of the considerations which guide whether
a spoliation sanction is appropriate are factual matters
that are best determined in the context of trial ruling,
after dispositive motions are resolved. Therefore, to the
extent that [Plaintiff ] seeks a spoliation inference instruction at trial, her entitlement to this instruction
may well turn on the precise nature of the proof at
trial, and the credibility of various witnesses.” E.N. v.
Susquehanna Twp. Sch. Dist., 2011 WL 2790266, at *3
(M.D. Pa. July 14, 2011) (emphasis added). Recognizing
this principle and the need to assess the credibility of
witnesses to fully resolve the question of whether
Plaintiff has met all of the elements of spoliation (including bad faith), we ﬁnd that Plaintiff ’s motion
“should be deferred to a time closer to trial” because
“ ‘pretrial rulings regarding evidentiary questions]
18

We recognize, however, that if Defendant’s motion is
granted as Recommended herein this aspect of the case will be
moot.

App. 130
should rarely be granted. . . .’ ” Id. (quoting In re Paoli
R. Yard PCB Litig., 916 F.2d 829, 859 (3d Cir. 1990)).
Therefore, “we conclude that the appropriate course
here is to deny this request that we ﬁnd that spoliation
sanctions are warranted here, without prejudice to
[Plaintiff to] renew[ ] this request at the appropriate
time, as determined by the trial judge. . . .” E.N., 2011
WL 2790266, at *3 (M.D. Pa. July 14, 2011); Zbylski v.
Douglas Cty. Sch. Dist., 154 F. Supp. 3d 1146, 1172 (D.
Colo. 2015) (“To the extent Plaintiff seeks preclusion of
certain evidence . . . such sanctions are more appropriately determined by Chief Judge Krieger as the presiding judge, after she [61] resolves the pending motion
for summary judgment and perhaps within the context
of the admitted evidence and credibility of witnesses
as offered at trial, with the assistance of ﬁndings reﬂected in this Order as she deems appropriate.”).
IV.

CONCLUSION

For the foregoing reasons, this Court RECOMMENDS that Defendant’s Motion for Summary Judgment [D.E. 38] be GRANTED and that Plaintiff ’s
Motion for Partial Summary Judgment [D.E. 39] be
DENIED. With respect to Plaintiff ’s motion for a ﬁnding of spoliation sanctions, Plaintiff ’s motion should be
DENIED on the merits or otherwise as moot.
Pursuant to Local Magistrate Rule 4(b) and Fed.
R. Civ. P. 73, the parties have fourteen (14) days from
service of this Report and Recommendation within
which to ﬁle written objections, if any, with the District

App. 131
Judge. Failure to timely ﬁle objections shall bar the
parties from de novo determination by the District
Judge of any factual or legal issue covered in the Report and shall bar the parties from challenging on
appeal the District Judge’s Order based on any unobjected-to factual or legal conclusions included in the
Report. See 28 U.S.C. § 636(b)(1); 11th Cir. Rule 3-1;
Patton v. Rowell, 2017 WL 443634 (11th Cir. Feb. 2,
2017); Cooley v. Commissioner of Social Security, 2016
WL 7321208 (11th Cir. Dec. 16, 2016).
DONE AND SUBMITTED in Chambers at Miami, Florida, this 22nd day of September, 2017.
/s/ Edwin G. Torres
EDWIN G. TORRES
United States Magistrate Judge

App. 132
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 18-11638-JJ
-----------------------------------------------------------------------

IRINA TESORIERO,
Plaintiff - Appellant,
versus
CARNIVAL CORPORATION,
d.b.a. Carnival Cruise Line,
Defendant - Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Florida
-----------------------------------------------------------------------

ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
(Filed Sep. 11, 2020)
BEFORE: ROSENBAUM, GRANT, and HULL, Circuit
Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having requested that the Court be polled on rehearing en banc.

App. 133
(FRAP 35) The Petition for Rehearing En Banc is also
treated as a Petition for Rehearing before the panel
and is DENIED. (FRAP 35, IOP2)
ORD-42

